<html>
<title> - RULE BY FEAR: 30 YEARS AFTER TIANANMEN SQUARE</title>
<body><pre>[Senate Hearing 116-230]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-230
 
                      RULE BY FEAR: 30 YEARS AFTER 
                            TIANANMEN SQUARE

=======================================================================

                                HEARING


                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

                              JUNE 5, 2019

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
40-872 PDF            WASHINGTON : 2020 
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                               (ii)         


                            C O N T E N T S

                              ----------                              
                                                                   Page

Risch, Hon. James E., U.S. Senator From Idaho....................     1

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     2

Qiang, Xiao, Founder and Editor-in-Chief, China Digital Times, 
  Berkeley, CA...................................................     4
    Prepared Statement...........................................     7

Richardson, Ph.D., Sophie, China Director, Human Rights Watch, 
  New York, NY...................................................    13
    Prepared Statement...........................................    15

Walker, Christopher, Vice President for Studies and Analysis, 
  National Endowment for Democracy, Washington, DC...............    18
    Prepared Statement...........................................    20

                   Additional Material for the Record

Responses of Mr. Xiao Qiang to Questions Submitted by 
  Senator Robert Menendez........................................    48

Responses of Mr. Christopher Walker to Questions Submitted by 
  Senator Robert Menendez........................................    51

Suggested Reading for the 30th Anniversary of the Tiananmen 
  Crackdown Submitted by Senator Robert Menendez.................    48

Material Submitted for the Record by Senator Markey: Letter to 
  Secretary Pompeo...............................................    53

                             (iii)        


                      RULE BY FEAR: 30 YEARS AFTER

                            TIANANMEN SQUARE

                              ----------                              


                        WEDNESDAY, JUNE 5, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:17 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Gardner, Romney, 
Barrasso, Young, Cruz, Menendez, Cardin, Shaheen, Coons, Kaine, 
and Markey.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. Our committee will come to order.
    This morning we are going to, on the 30th anniversary, or 
the day after the 30th anniversary of the Tiananmen Square 
massacre, honor all those brave citizens of China who believed 
in a freer future for their China. Please join me in a brief 
moment of silence for them, including those who lost their 
lives.
    [A moment of silence.]
    The Chairman. Thank you.
    In June 1989, the photo of a lone Chinese citizen standing 
down a column of People's Liberation Army tanks in Tiananmen 
Square was the snapshot seen around the world of the Chinese 
people's suffering.
    The Chinese Government's modes of repression today are 
perhaps more difficult to capture in a single image but are, 
nevertheless, omnipresent, pernicious, and increasingly brazen. 
Every day is Tiananmen Square, but you do not see the pictures 
and you do not see the way that they are treated because it is 
done surreptitiously. Though perpetrated by the Chinese 
Communist Party for decades, human rights abuses have 
intensified under President Xi Jinping.
    As we sit here today, there are between 1 million and 2 
million Muslims locked up by Chinese authorities in internment 
camps, where they face political indoctrination, isolation, 
abuse, and death. For every person in the camps, dozens more 
wonder what has happened to their loved ones.
    In general, freedom of religion is extinct in China. The 
Chinese Communist Party is bent on interfering in the selection 
of the next Dalai Lama. It has shut down churches and detained 
Christian pastors. And the Chinese Government is working on 
crafting so-called correct interpretations of the Bible. All of 
this is part of explicit government policies aimed at stripping 
religious organizations of their independence and forcing them 
to align with the Chinese Communist Party.
    Those who bear the greatest brunt of the Communist Party's 
disrespect for the rule of law are those who stand up to defend 
it. In the 4 years after the Chinese Communist Party's July 
2015 crackdown, numerous human rights lawyers and other 
advocates have received multiyear sentences. Those not in 
prison face restrictions on their freedom of movement and other 
forms of harassment and intimidation.
    Alongside these seismic abuses of power, we should not 
forget the injustices faced by all Chinese citizens each day. 
It is every censored Internet search or text message. It is the 
inability to buy a plane ticket because of a low, quote, social 
credit score, unquote. It is every facial scan.
    These examples demonstrate technology's role as an 
accelerant in the Communist Party's repression today. The 
Chinese Government and Chinese companies are pioneering an 
intrusive mass surveillance system. This is a serious challenge 
that we will pay particular attention to in this hearing and in 
the committee's work on command.
    Another challenge is the spread of Chinese human rights 
policies outside of the mainland. Chinese companies are 
exporting technology to regimes with poor human rights records 
and training authoritarian governments in information 
management and new media. China is seeking to redefine human 
rights norms at the United Nations, and it is exploiting the 
openness of advanced democracies to chill freedom of 
expression, particularly discussion about China itself.
    This is rule by fear. This is a regime that believes it 
bestows rights to its people and can take them away just as 
quickly as it bestows them. A regime that has appointed itself 
the judge of Chinese culture and identity, even though the 
birth of China predates the Chinese Communist Party rule by 
more than 5,000 years. And a regime that inserts the state into 
the facets of life that best promote human flourishing: faith, 
family, and civic engagement.
    The United States should make the defense of intrinsic 
values like fundamental freedoms and human rights a more 
central part of our approach to China. That we stand for 
freedom and human rights as well as prosperity is an advantage 
that we should not shy away from.
    I want to thank everyone for their interest in this topic 
and how we can stand up for the Chinese people, as well as 
protect our own societies.
    With that, I will turn it over to Ranking Member Senator 
Menendez for his opening remarks.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. Thank you for 
calling this important hearing. And let me thank in advance our 
three extraordinary witnesses.
    The 30th anniversary of the Tiananmen Square massacre 
provides an important opportunity to discuss human rights in 
China and the importance of a values-driven American foreign 
policy. Indeed, the events of 30 years ago continue to resonate 
because of our collective commitment to building a more just 
and decent world.
    Unfortunately, China has continued down the path it began 
that fateful day. With Xi Jinping declaring himself president 
for life, cracking down on civil society and human rights, 
introducing an Orwellian system of mass surveillance, advancing 
militarily in the South China Sea, and with predatory economic 
practices in Africa and the western hemisphere, China's 
trajectory is clear.
    Under the guise of the so-called reeducation campaigns, the 
CCP has brutally forced nearly a million Uyghurs in Xinjiang 
into heavily surveilled, forced labor camps, a model Xi may 
intend to expand throughout the country.
    Tibetans, facing wide-scale repression and harsh controls 
on religious, educational, cultural, and linguistic freedom, 
were in many respects the test subjects for the sort of ethnic 
surveillance we see in Xinjiang.
    CCP authorities likewise repress Christians and Falun Gong 
members who face forced labor and torture for their beliefs.
    Lawyers, journalists, students, labor activists, and human 
rights defenders are all at risk. And behind its Great 
Firewall, China has created a social credit system that rewards 
the, quote/unquote, good and punishes the, quote/unquote, bad.
    Sadly, China's authoritarian model is appealing in all too 
many places around the globe where dictators and despots are 
happy to accept China's assistance in repressing their own 
people. From Cambodia to Venezuela to Angola, we find the 
Communist Party of China sharing the technologies and 
techniques they have refined to crush democracy in their own 
country.
    Developing an effective policy that keeps our values at the 
center of our China policy is uniquely challenging and 
increasingly urgent. Just being more confrontational with China 
does not make us more competitive with China. Nor does simple 
confrontation help us resolve core human rights concerns.
    As we reflect on those lost and the events of Tiananmen, we 
must also look inward. We must ensure our values, grounded in 
international human rights, guide our efforts to strategically 
and coherently respond to China's rising power and growing 
authoritarianism.
    Unfortunately, the administration has simply failed to use 
our cherished time-tested principles and tools to universally 
and strategically support and promote human rights. And this is 
simply unacceptable. To confusion and dismay, last week 
Secretary Pompeo announced the establishment of a new 
commission to make sure that we have, quote, a solid definition 
of human rights. Well, the solid definition already exists. We 
do not need to redefine human rights. We need to defend and 
protect them.
    We must leverage all of our tools in our toolkit. We must 
cultivate robust diplomatic and security partnerships. We must 
bolster our own presence. We must address our own economic 
challenges and pursue more adroit economic statecraft abroad. 
And core American values must be the centerpiece of our foreign 
policy.
    We can start by investing in institutions that support 
democratic governance globally and stand with those who seek 
freedom.
    We must remember what made America a leader of nations. It 
was not just the strength of our military or the dynamism of 
our economy. It was the enduring power of our ideals.
    This committee must step up to advocate for more than a 
transactional approach to human rights because democracy will 
not defend itself.
    In the memory of those who died for their belief in 
democracy in China 30 years ago, we must remind ourselves of 
the sheer power of an informed democratic society living in 
freedom. We must lead with the values that made us great to be 
a beacon for those around the world. In doing so, we offer a 
better model, one which the people of China demonstrated 30 
years ago has universal appeal, not limited to a civilization 
or a particular nation. We must equally advocate, for example, 
for peaceful protesters in Sudan attacked by their government 
over the weekend.
    And it is these values that inspire others to partner with 
us and to rally with us in facing down the greatest challenges 
of our time.
    We owe those who stood in Tiananmen Square 30 years ago and 
the Chinese people nothing less today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We now have three outstanding witnesses that are going to 
testify. We will hear from them, and then we will have a round 
of questions.
    First, I want to introduce Mr. Xiao Qiang. He is a research 
scientist at the University of California-Berkeley School of 
Information and the founder and editor-in-chief of China 
Digital Times, a bilingual China news website launched in 2003. 
Though a theoretical physicist by training, he became a full-
time human rights advocate after the Tiananmen Square massacre 
in 1989. His current research focuses on state censorship, 
propaganda, and disinformation, as well as emerging big data 
and artificial intelligence-empowered state surveillance in 
China.
    Mr. Xiao, we would love to hear from you.

  STATEMENT OF XIAO QIANG, FOUNDER AND EDITOR-IN-CHIEF, CHINA 
                  DIGITAL TIMES, BERKELEY, CA

    Mr. Xiao. Thank you, Mr. Chairman and respectable members 
of the committee.
    June 5th, this very day, exactly 30 years ago, I was 
studying a Ph.D. program in the University of Notre Dame. After 
seeing on TV the PLA soldiers open fire on peaceful 
demonstrators in my home city, Beijing, I abandoned my 
astrophysics program and caught the first flight home to China. 
For 2 months in a time of terror, I tried to find out what had 
happened, contacting people in hiding, dodging police, and 
handing over donations raised abroad to the victims and their 
families.
    And I came back from that trip with one full realization. I 
realized that the name of the People's Republic of China itself 
is a lie. This government has never been the people's, nor is 
it a republic. China's National People's Congress is not 
elected by Chinese people. And China's People's Liberation Army 
only opened fire on people on the street of Lhasa, Beijing, and 
these days in the towns and villages in Xinjiang. When 
challenged, this lie could only be maintained through brutal 
violence and through the fear created through such violence.
    After 30 years, the Chinese communist regime has not only 
survived but also increased its power. Many Western politicians 
have been convinced that the wealth of the middle class and 
that the rise of the Internet will transform China from 
authoritarianism to democracy. But the reality is that Chinese 
rulers have taken advantage of their inclusion in the 
globalized trading process, significantly growing its economy 
under the CCP-controlled state capitalism and are refusing to 
allow any political liberalization.
    And President Xi Jinping today, after he scrapped the 
presidential term limits written in the Chinese constitution--
he became the most powerful dictator in the world.
    And there is another threatening trend, threatening the 
hope of freedom of China. The digitalization of Chinese society 
is turning China into a surveillance state. Facial recognition, 
voice recognition, DNA collection, 200 million civilian cameras 
everywhere, social credit system, a new generation of digital 
technology, including artificial intelligence and big data 
analysis, is empowering the state to control, to monitor, to 
manipulate China's vast population in scalable fashion, at ease 
and with capacity to micro-target individuals. It can also help 
the state to identify and quash opposition in advance. China is 
exporting these technologies to other autocratic regimes around 
the world, normalizing and enabling a global authoritarianism.
    Ladies and gentlemen, the United States must develop an 
effective policy to stop this Chinese surveillance tech 
industry, disrupting its supply chains, and through working 
with allies, prevent China from using its government-controlled 
companies to advance its digital totalitarian interests in 
other parts of the world.
    We must have no illusions. It is the existence of the 
Chinese Communist Party dictatorship that abuses and threatens 
the liberty and the safety of Chinese people and people's lives 
anywhere in this increasingly interconnected globe. But this is 
not a clash of civilizations. It is a clash between two 
different political systems, between democracy and a one-party 
dictatorship. We just need to look to Taiwan where Chinese 
civilization works well with democratic governance. We can also 
look to Japan, South Korea, and India.
    As a son of China and a proud citizen of the United States 
of America, I am asking each of you, when making the best 
possible China policy that defends the value and the interests 
of American people, please also make it align with and support 
Chinese people's struggle for human rights and freedom because 
we share a common humanity.
    Thirty years after Tiananmen, the Chinese Communist Party 
continues to rule China, rule Chinese people through fear. But 
those who rule by fear also live in fear. Last week, I was 
visiting Berlin and had some time to take a walk in the 
streets. Where the Berlin Wall once stood now there is a dark 
line on the ground through the city, some parts are hiking 
trails. But I also saw something else: names of victims of the 
Nazis engraved in shining brass plaques, 70,000 of them spread 
throughout Berlin city. I started to envision that one day in 
Beijing, the names of those who died during the Tiananmen 
massacre will be engraved into the city's roads, building 
walls, and parks and on Tiananmen Square, the gate of heavenly 
peace. I asked myself, where is Hitler's Nazi Germany now? 
Where is the former Soviet Union? Where is Suharto's Indonesia 
or Pinochet's Chile? They are all gone because the ultimate 
spirit of human dignity is more enduring than tanks and machine 
guns or even they are empowered by artificial intelligence and 
spaceships. Freedom will prevail in West or East, in Berlin or 
in Beijing.
    Mr. Chairman, ladies and gentlemen, please allow me to ask 
you close your eyes for 1 minute. Just close your eyes. Can you 
see millions of Chinese faces on Tiananmen Square? Millions, 
peaceful, fearless, young, full of longing for freedom. Can you 
see the goddess of democracy standing tall in Tiananmen? Can 
you see the brave young man, his white shirt with two plastic 
shopping bags in his hands standing still in front of a column 
of moving tanks?
    Chinese people want, deserve, and demand human rights and 
freedom just like American people, just like people anywhere in 
the world. The only reason these voices cannot be fully heard 
is because they are being suppressed by the Chinese Government. 
Yes, it is the most powerful authoritarian state in the world. 
The regime is not just domestically oppressive, but it is 
becoming externally aggressive like an empire.
    I would like to end my testimony with a quote from Mahatma 
Gandhi, a great man from another great civilization.
    ``When I despair, I remember that all through history the 
way of truth and love has always won. There have been tyrants 
and murderers, and for a time, they can seem invincible, but in 
the end, they always fall. Think of it always.''
    Thank you.
    [The prepared statement of Mr. Xiao follows:]

                    Prepared Statement of Xiao Qiang
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you very much. We appreciate that 
testimony.
    We will now hear from Sophie Richardson. She is the China 
Director at Human Rights Watch. Dr. Richardson is the author of 
numerous articles on domestic Chinese political reform, 
democratization, and human rights in Cambodia, China, 
Indonesia, Hong Kong, the Philippines, and Vietnam. Under her 
leadership, Human Rights Watch has documented a myriad of human 
rights abuses by the Chinese Government, including most 
recently the use of mass surveillance and the emerging 
technologies issue.
    Dr. Richardson.

 STATEMENT OF SOPHIE RICHARDSON, Ph.D., CHINA DIRECTOR, HUMAN 
                   RIGHTS WATCH, NEW YORK, NY

    Dr. Richardson. Chairman Risch, Ranking Member Menendez, 
members of the committee, thank you for inviting us to join you 
on this very somber anniversary.
    Among the most disturbing aspects of President Xi's rule is 
Chinese authority's development and deployment of surveillance 
technology that aspires to engineer a dissent-free society. 
Authorities deny people any meaningful privacy rights from the 
government's prying eyes, and coupled with a deeply politicized 
judicial system, the lack of a free press and the denial of 
political rights, people across the country have no ability to 
challenge these developments or even truly understand how 
society is being transformed until it impacts them or their 
families directly.
    What are some examples of this technology? One of the 
Ministry of Public Security's most ambitious and privacy-
violating big data projects is the police cloud system, which 
appears to be national. The system scoops up information from 
people's medical records to their supermarket memberships to 
delivery records, much of which is linked to people's unique 
national identification numbers. The police cloud system aims 
to track where the individuals have been, who they are with, 
and what they have been doing, as well as make predictions 
about their future activities. In effect, the system watches 
everyone, and the police can arbitrarily designate anyone a 
threat who requires greater surveillance, especially if they 
are deemed to be undermining stability.
    The Chinese Government is also developing a national social 
credit system that rewards good behavior and punishes the bad. 
At present, it is a blacklisting system in which behaviors the 
authorities disapprove of, from abnormal petitioning to eating 
on the subway, can affect one's ability to obtain services such 
as getting mortgages or traveling on high-speed trains, or even 
enrolling children in public schools.
    To what extent the social credit system will evolve and how 
it will interact with the police systems of mass surveillance 
remains an open question.
    In December 2017, we reported on Xinjiang authorities' 
compulsory collection of DNA samples, fingerprints, iris scans, 
and blood types of all citizens in the region between the ages 
of 12 and 65, in part under the guise of a free public health 
care program. That campaign significantly expanded the 
authorities' collection of biodata beyond previous government 
efforts in the region. It did not appear that the government 
disclosed to the public or to participants the full range of 
how the collected medical information would be used and 
disseminated or for how long it would be storied, and it 
appears that people were given little information about the 
program or the ability to opt out of it.
    We discovered that a U.S.-based company, Thermo Fisher 
Scientific, had sold DNA sequencers to the Xinjiang Public 
Security Bureau during this period. After inquiries from Human 
Rights Watch, Members of Congress, and the New York Times, the 
company agreed to stop selling that particular technology in 
that particular region. However, it remains unclear whether it 
has adopted due diligence policies that might prevent such 
problems in the future.
    Most recently, Human Rights Watch reverse-engineered an app 
used by the police and government officials in Xinjiang that is 
connected to a police mass surveillance system called the 
Integrated Joint Operations Platform, or IJOP, which aggregates 
information about all residents of Xinjiang under the guise of 
providing public security. Our research into the app revealed 
that the authorities consider many ordinary and legal 
behaviors, such as, quote, not socializing with neighbors, 
quote, often avoiding using the front door, using WhatsApp or 
simply being related to someone who had obtained a new phone 
number, as suspicious. The app then flags such people for 
interrogation, some of whom are then sent to Xinjiang's 
political education camps where they are arbitrarily and 
indefinitely detained.
    The consequences of these technologies across China are 
enormous. The state is now not only able to peer into virtually 
every aspect of a person's public and private life, but is also 
clearly using information gained that way to reward and punish 
people outside any discernible legal scheme.
    Major Chinese tech companies now operate around the world. 
In 2014, we documented ZTE's sale of telecom surveillance 
technology to the Ethiopian Government, which used that 
equipment to monitor its political opponents. IFlytek, one of 
China's major voice recognition companies, which is helping the 
Ministry of Public Security in building a national voice 
pattern database, is also working MIT. China Electronics 
Technology Group Corporation, a state-owned defense 
conglomerate behind Xinjiang's IJOP system, has numerous 
subsidiaries, including Hikvision, a major surveillance camera 
manufacturer whose products are used around the world, 
including in the U.S.
    What can be done about any of this?
    To combat the Chinese Government's expanding use of 
surveillance technology in the commission of human rights 
violations, we urge the United States to impose appropriate 
export control mechanisms, including by adding companies to 
existing export control lists and imposing targeted sanctions 
under the Global Magnitsky Act.
    We also encourage consideration of end-user bans.
    U.S. companies and universities working in this sector 
should be encouraged to adopt due diligence policies to ensure 
that they are not engaged in or enabling serious human rights 
violations.
    We urge the swift adoption of the Uyghur Human Rights 
Policy Act, which we were very glad to see was voted out of 
this committee.
    While there is much work for the U.S. to do to limit 
Chinese Government and Chinese Communist Party encroachments on 
human rights abuses in the United States, particularly with 
respect to realms such as academic freedom, those strategies 
must place at their core welcoming and protecting the rights of 
people from China who come here in order to be able to freely 
exercise those rights.
    Finally, the U.S. and ideally members of this body today 
should recommit their support to independent civil society 
across China. That community is under sustained assault and it 
needs sustained attention from the U.S., including both 
Congress and the executive branch. People from that community 
paid a terrible price at Tiananmen. They have paid it over the 
past 3 decades. Yet, they have not abandoned the Tiananmen 
spirit and nor should the U.S.
    Thank you. I look forward to your questions.
    [The prepared statement of Dr. Richardson follows:]

             Prepared Statement of Sophie Richardson, Ph.D.

    Chairman Risch, Ranking Member Menendez, members of the Committee, 
thank you for inviting me to testify on this somber anniversary.
    Human Rights Watch began reporting on human rights violations 
committed by the Chinese government in the mid-1980s, and while many of 
us had hoped that the government's greater interactions with the 
international community and institutions over the subsequent years 
would eventually lead to greater respect for human rights, the reality 
is the reverse: under President Xi Jinping, not only is the state 
carrying out gross human rights violations, including heightened 
repression of peaceful activists and the arbitrary detention of one 
million Turkic Muslims in Xinjiang, it is also aggressively attempting 
to undermine international institutions critical to protecting the 
human rights of people around the world.
    We now know that the 1989 Tiananmen Square Massacre was not an 
aberration, but an expression of deep-seated authoritarianism embraced 
by successive administrations in Beijing. The U.S. response to 
Tiananmen was strong and principled, not just in rhetoric, but in 
actions. Over time, however, the fate of the sanctions imposed by the 
U.S. in response to Tiananmen represented a wavering commitment to 
pressing for reform in China: those sanctions have been slowly eroded 
on paper, superseded by business interests, and are hardly reflective 
of Chinese authorities' technological prowess. The sanctions, which 
were designed to limit the export of ``equipment or instruments related 
to crime control and detection,'' meant that the U.S. could not sell 
gear, such as handcuffs. But they do not limit the export of the kinds 
of technology Chinese police now deploy to maintain ``public order''--
equipment like DNA sequencers, the sale of which remains permissible 
under U.S. law.
    Our research is only a snapshot of an evolving system of mass 
surveillance: these systems are generating massive datasets--
unprecedented in human history--of personal information, people's 
behavior, relationships, and movements. The Chinese police are 
researching ways to use such information to understand in a more fine-
grained way how people lead their lives. The goal is apparently to 
identify patterns of, and predict, the everyday life and resistance of 
its population, and, ultimately, to engineer and control reality.
                human rights under president xi jinping
    Since President Xi assumed leadership as the Chinese Communist 
Party (CCP) general secretary in late 2012, his government has actively 
sought to roll back all of the modest human rights gains made over the 
previous decades.
    Inside China, Xi's government unleashed a ferocious crackdown on 
independent civil society, arbitrarily detaining and prosecuting, on 
harsh and baseless charges, human rights lawyers, writers, journalists, 
and feminist activists. Repression of ethnic minorities and religious 
communities has grown exponentially, leading to the current crisis in 
Xinjiang. The government has adopted a slew of blatantly abusive laws, 
many of them in tension with China's international obligations and its 
own Constitution. It has killed off legal reform, strengthened the 
Party and Xi's control over state institutions; in March 2018, the CCP 
removed term limits on his presidency. Space for any independent 
activism or peaceful criticism is virtually gone, perhaps best embodied 
by the July 2017 death under guard of 2010 Nobel Peace Prize laureate 
Liu Xiaobo, or the dramatically shrinking space for human rights in 
Hong Kong.
    Outside China, Xi's government has aggressively engaged in 
undermining key international human rights institutions, particularly 
at the United Nations. Beijing's trillion-dollar Belt and Road 
Initiative has no human rights safeguards; its development banks, 
including the Asian Infrastructure Investment Bank, are notoriously 
weak in this regard. Human Rights Watch has detailed Chinese government 
and Communist Party efforts to limit academic freedom and undercut 
labor standards outside China. As important, Beijing tries to control 
and intimidate diaspora communities, ranging from pressuring 
governments to forcibly return people seeking asylum to censoring 
WeChat communications between democratically elected representatives 
and their constituents.
         mass surveillance technology inside and outside china
    Among the most disturbing aspects of Xi's rule and the current 
situation: Chinese authorities' development and deployment of 
surveillance technology that aspires to engineer a dissent-free 
society. Chinese authorities deny people any meaningful privacy rights 
from the government's prying eyes, and, coupled with a deeply 
politicized judicial system, the lack of a free press, and the denial 
of political rights, people across the country have no ability to 
challenge these developments or even truly understand how society is 
being transformed until it impacts them--or their families--directly.
    What are some examples of this technology? One of the Ministry of 
Public Security's most ambitious and privacy-violating big data 
projects is the ``Police Cloud'' system, which appears to be national. 
The system scoops up information, from people's medical history, to 
their supermarket membership, to delivery records, much of which is 
linked to people's unique national identification numbers. The Police 
Cloud system aims to track where the individuals have been, who they 
are with, and what they have been doing, as well as make predictions 
about their future activities. It is designed to uncover relationships 
between events and people ``hidden'' to the police by analyzing, for 
example, who has been staying in a hotel or travelling together. In 
effect, the system watches everyone, and the police can arbitrarily 
designate anyone a threat who requires greater surveillance, especially 
if they are seen to be ``undermining stability''--an alarmingly 
ambiguous construct. It's critical to understand that there is no 
transparency in such a designation, and no way to challenge it--this is 
not the same as predictive policing in the U.S.
    The Chinese government is also developing a national ``social 
credit system'' that rewards ``good'' behavior and punishes the 
``bad.'' At present, it is a blacklisting system in which behaviors the 
authorities disapprove--from ``abnormal petitioning'' to eating on the 
subway--can affect one's ability to obtain services, such as getting 
mortgages and travelling on high-speed trains. The system already has 
rights implications. We documented a case in which Li Xiaolin, a human 
rights lawyer, was put on a blacklist for failing to apologize 
``sincerely'' to a plaintiff in a defamation case. In that case, the 
penalty was exacted in an arbitrary and unaccountable manner: 
authorities failed to notify him that he had been blacklisted, leaving 
him no chance to contest his treatment.
    To what extent the social credit system will evolve, and how it 
will interact with the police systems of mass surveillance, remains an 
open question. It is important to note that the social credit system 
and the mass surveillance systems were envisioned as part of the 
Chinese government's bigger vision for ``better'' ``social 
management''--meaning, social control.
    In December 2017, Human Rights Watch documented Xinjiang 
authorities' compulsory collection of DNA samples, fingerprints, iris 
scans, and blood types of all residents in the region between the ages 
of 12 and 65, in part under the guise of a free public healthcare 
program. That campaign significantly expanded authorities' collection 
of biodata beyond previous government efforts in the region, which only 
required all passport applicants in Xinjiang to supply biometrics. It 
did not appear that the government has disclosed to the public or to 
participants, the full range of how collected medical information will 
be used and disseminated or how long it will be stored, and it appears 
that people were given little information about the program or the 
ability to opt out of it. We discovered that a U.S.-based company, 
Thermo Fisher Scientific, headquartered in Waltham, Massachusetts, had 
sold DNA sequencers to the Xinjiang Public Security Bureau during this 
period. After inquiries from Human Rights Watch, members of Congress, 
and the New York Times, the company agreed to stop selling that 
particular technology in that particular region. However, it remains 
unclear whether it has adopted due diligence policies that might 
prevent such problems in the future.
    Most recently, Human Rights Watch reverse-engineered an app used by 
police and government officials in Xinjiang that is connected to a 
police mass surveillance system, called the Integrated Joint Operations 
Platform (IJOP), which aggregates information about all residents of 
Xinjiang under the guise of providing public security. Our research 
into the app revealed that the authorities consider many ordinary and 
legal behavior, such as ``not socializing with neighbors,'' ``often 
avoiding using the front door,'' using WhatsApp, or simply being 
related to someone who has obtained a new phone number, as suspicious. 
The app then flags such people for interrogation; some of whom are then 
sent to Xinjiang's ``political education'' camps where they are 
arbitrarily and indefinitely detained until authorities deemed them to 
have become sufficiently loyal to the Chinese Communist Party.
    The consequences of these technologies across China are enormous: 
the state is now not only able to peer into virtually every aspect of a 
person's public and private life, but is also clearly using information 
gained that way to reward and punish people outside any discernible 
legal scheme. It's not just the case that it's now ``suspicious'' if 
you go out your back door instead of your front door in Xinjiang, it's 
that the authorities can know that and investigate and punish you for 
it, even though it's legal. You are not only suspicious if you question 
state policies, your level of suspiciousness is also dependent on who 
you are related to, who you spend time with.
    Like other human rights violations committed by Chinese 
authorities, tech-related abuses no longer stay inside China. In recent 
years major Chinese firms have sold surveillance technology and 
provided training to other abusive governments; in 2014 we documented 
ZTE's sale of telecom surveillance technology to the Ethiopian 
government, which used that equipment to monitor its political 
opponents.\1\ iFlytek, one of China's major voice recognition 
companies, which works with the Ministry of Public Security in building 
a national voice pattern database, is working with universities in the 
U.S.; \2\ it is unclear whether that cooperation is subjected to due 
diligence strategies to ensure that that collaboration is not 
inadvertently contributing to human rights violations. China 
Electronics Technology Group Corporation (CETC), a state-owned defense 
conglomerate behind Xinjiang's IJOP system, has numerous 
subsidiaries.\3\ These subsidiaries in turn have joint ventures and 
research and development partnerships abroad. One of CETC's 
subsidiaries is Hikvision, a major surveillance camera manufacturer 
whose products are used around the world, including in the U.S.
                            recommendations
    We now find ourselves confronted with a powerful Chinese government 
willing to deploy extraordinary resources to deny people inside and 
outside China their human rights.
    Human Rights Watch appreciates that many congressional 
interventions on China and human rights have long been bipartisan and 
bicameral, and that in recent years members of Congress have stood on 
principle to protest human rights violations even when administrations 
would not.
    To combat the Chinese government's expanding use of surveillance 
technology in the commission of human rights violations, we urge the 
United States to impose appropriate export control mechanisms to deny 
the Chinese government--and Chinese companies enabling government 
abuses--access to technologies used to violate basic rights, including 
by adding companies to existing export control lists, and imposing 
targeted sanctions under the Global Magnitsky Act against individuals 
linked to serious violations of human rights. U.S, private companies 
and public universities working in this sector should be encouraged to 
adopt due diligence policies to ensure they are not engaged in or 
enabling serious human rights violations.
    It is imperative that Congress keep up the pressure on the 
administration to promote universal human rights; certainly, your 
multiple inquiries as to the administration's approach to Xinjiang have 
helped. This is particularly important when it comes to international 
institutions that have a role in protecting human rights, including the 
United Nations Human Rights Council, which I know can sometimes be 
difficult for members of Congress to do. It is important for you to 
recognize that the U.S. withdrawal from that body, in particular, has 
made it much more difficult to develop international pressure to end to 
the crisis in Xinjiang, and the Chinese government has moved swiftly to 
occupy this space.
    We urge the swift adoption of the Uyghur Human Rights Policy Act, 
which I was glad to see recently passed out of this committee, and 
vigorous implementation of the Tibet Policy Act, the Reciprocal Access 
to Tibet Act, and the Hong Kong Policy Act--all three regions are under 
enormous pressure from Beijing and face serious encroachments on human 
rights.
    While there is much work for the U.S. to do to limit Chinese 
government and Chinese Communist Party encroachments on human rights in 
the United States, particularly with respect to realms such as academic 
freedom, those strategies should place at their core protecting the 
rights of people from China who seek an opportunity to exercise those 
rights--not make assumptions about or limit them as a result of their 
nationality or ethnicity. This is a mistake the U.S. has made in the 
past, and it should not be repeated.
    Finally, the U.S.--and ideally members of this body, today--should 
recommit their support to independent civil society across China. That 
community is under sustained assault, and it needs sustained attention 
from the U.S. government--including both Congress and the executive 
branch. People from that community paid a terrible price at Tiananmen; 
they have paid it over the past three decades. Yet they have not 
abandoned the Tiananmen spirit, and neither should the U.S.

------------------
Notes

    \1\ ZTE did not respond to Human Rights Watch's letter of inquiry.
    \2\ iFlytek did not respond to Human Rights Watch's letter of 
inquiry.
    \3\ CETC did not respond to Human Rights Watch's letter of inquiry.

    The Chairman. Thank you very much.
    We are going to hear now from Christopher Walker, who is 
Vice President for Studies and Analysis at the National 
Endowment for Democracy. Prior to joining NED, Mr. Walker was 
Vice President for Strategy and Analysis at the Freedom House. 
Mr. Walker has also served as an adjunct assistant professor of 
international affairs at New York University's Center for 
Global Affairs. He has been at the forefront of the discussion 
on authoritarian influence on democratic systems, including to 
what he has termed ``sharp power.''
    Mr. Walker.

STATEMENT OF CHRISTOPHER WALKER, VICE PRESIDENT FOR STUDIES AND 
   ANALYSIS, NATIONAL ENDOWMENT FOR DEMOCRACY, WASHINGTON, DC

    Mr. Walker. I would like to thank Chairman Risch, Ranking 
Member Menendez, and other esteemed members of the committee 
for the opportunity of presenting testimony on the impact of 
China's international engagement on democracy.
    For many years now, the paramount authorities in Beijing 
have tightened their grip on Chinese society. At home, the 
Chinese Communist Party has taken steps to intensify its 
control of media and free expression and sharpened repression 
more generally. The authorities have enhanced their ability to 
do so through the application of modern technologies.
    China in the post-Tiananmen era has been viewed by external 
observers largely through an economic development lens. The 
democracies' headlong rush into unconditional, rather than 
measured and principled, engagement with China has resulted in 
evident problems. The central assumption was that by deeply 
engaging the People's Republic of China and welcoming its 
integration into the global economic system, its government 
would be encouraged to move in the direction of meaningful 
political reform. But this approach has not turned out the way 
we anticipated.
    Although today China intersects in many ways with the 
global system, it has not become more transparent and 
accountable under the CCP's rule. Rather, it has developed 
policies and practices that can corrode and undermine 
democratic standards. Thus, we are at the same time facing 
systems integration and systems competition.
    For too long, observers in free societies have viewed these 
trends with China as divorced from developments from beyond the 
PRC, but this narrow view is misguided and has led to a 
dangerous sense of complacency. Beijing has internationalized 
its authoritarianism in ways that affect us all. On this 
important anniversary of the brutal crackdown on Tiananmen 
Square, we are obliged to reflect on the China that has emerged 
over the past 3 decades and on how the country's leadership is 
pursuing its ambitions beyond its country's borders.
    A critical aspect of China's development is the massive 
resources the authorities have invested in modern technologies. 
Such investments over the years have been central to the 
repression in the Xinjiang Uyghur Autonomous Region, which is 
functioning now as a technology-animated police state. As China 
scholar Samantha Hoffman notes, investment by the Chinese 
authorities in other parts of China, including in Tibet, over 
an extensive period of time has enabled the building of the 
formidable arsenal of surveillance that today is evident in the 
Uyghur region.
    Indeed, today the Uyghur region itself serves as an 
incubator for the testing and development of cutting-edge 
technological tools of oppression that are invariably feeding 
back into other parts of the PRC but also having impact beyond 
China's borders, including in places such as Latin America and 
Africa.
    Apart from the sphere of technology, Beijing has refined 
and scaled up its instruments of influence and, with them, its 
ability to manipulate the political landscape in other 
countries. As the leadership in Beijing has become more 
repressive domestically, China has grown more ambitious 
internationally in ways that are anathema to democratic values 
and the rule of law. Such behavior is at direct odds with the 
notion of China as a responsible stakeholder.
    Under the direction of the CCP, China has established 
platforms abroad for educational, cultural, and other forms of 
influence within open societies. It has been noted during the 
course of the discussion so far that China is sharing 
technologies and know-how with other authoritarian regimes, 
which is true, Cambodia, Angola, Venezuela, and the like. But I 
would stress that the wrinkle today that should really concern 
all of us is that China is sharing these technologies in more 
open societies. We can talk more about that, but this is really 
critical to the understanding of China's evolution and its 
ambitions.
    So I will just say a brief word about some of this in the 
media sphere where China has learned to manage political ideas 
within its own borders quite effectively, as my colleagues have 
noted. They are now bending globalization in a way that 
manipulates discourse abroad both in wide open democratic 
societies but also in authoritarian settings.
    In Africa, for example, China has intensified its 
engagement especially in the region's media sphere, expanding 
its presence in state-owned media outlets in the region, 
hosting exchange programs, and training for journalists, and 
acting as a supplier for Africa's telecommunications 
infrastructure. I would note, however, that the Chinese 
Government's training of journalists is not what we imagine it 
to be. It is not real journalism education. Instead, the focus 
is on talking up Chinese achievements, big infrastructure 
projects and the like, and on learning how to report from the 
Chinese Government's perspective. Such patterns are also 
evident in Latin America.
    I would note that in the United States in 2015, it was 
reported that China Radio International, which is Beijing's 
state-run radio network, was operating as a hidden hand behind 
a global web of stations on which China's government controls 
much of the content.
    This is in line with the patterns we are seeing in terms of 
China's engagement around the world. And this is defined by 
opacity and secrecy. So in Panama, just to give a couple of 
other examples, and El Salvador, when these governments 
switched their diplomatic recognition from Taiwan to the PRC, 
key government, private sector, and civil society actors in 
those countries were kept in the dark until after official 
announcements were made.
    In Argentina, a deal reached, when Cristina Kirchner was in 
power, saw the People's Liberation Army given a 50-year lease 
to build and operate a space observation station with dual-use 
capabilities in Patagonia. After recent reporting revealed the 
agreement provided the Argentine Government with no mechanisms 
for oversight or access to the station, Argentina's national 
congress launched an investigation and is seeking to revisit 
the agreement. The key issue here is that in none of these 
cases was there a public discussion of these very important 
issues before the deals were cut, and this plays out across 
examples we see where China is engaged.
    So what do we do about the challenge? I would say the 
following.
    First, I think it is important to emphasize that we have 
entered into what is a global struggle over whose values will 
predominate. On the one hand, we have those of the CCP that 
privileges state control, censorship, and rule by law. On the 
other hand, we have democratic systems that privilege openness, 
free expression, and the rule of law. How this contest plays 
out will define the character of the world we live in.
    I think as principal steps to get at this, first, we need 
to address the large knowledge and capacity gap on China that 
exists in so many settings. We need to support journalists, 
civil society, policy elites so they can handle the burden that 
they are facing now in their own countries in Africa, Latin 
America, the Balkans, and elsewhere.
    Second, we need to move beyond transparency. Enhancing 
transparency is a way of safeguarding democratic societies 
against undesirable Chinese party state influences, a necessary 
but insufficient step.
    Third, we need to prioritize democratic solidarity.
    And finally, we need to accelerate learning through 
cooperation with democratic partners.
    Thank you for your attention.
    [The prepared statement of Mr. Walker follows:]

              Prepared Statement of Mr. Christopher Walker

    I would like to thank Chairman Risch, Ranking Member Menendez, and 
the other esteemed members of the Committee for the opportunity and 
privilege of presenting testimony on the critical subject of the impact 
of China's international engagement on democratic institutions, 
principles, and ideas.
    For many years now, the paramount authorities in Beijing have 
tightened their grip on Chinese society. At home, the Chinese Communist 
Party has taken steps to intensify its control of media and free 
expression, and has sharpened repression more generally. The 
authorities have enhanced their ability to do so through the 
application of modern technologies.
    China in the post-Tiananmen era has been viewed by external 
observers through an economic development lens. The democracies' 
headlong rush into unconditional--rather than measured and principled--
engagement with China has resulted in evident problems. The central 
assumption was that by deeply engaging the People's Republic of China 
(PRC) and other such regimes and welcoming their integration into the 
global economic system and key international political institutions, 
the autocracies would be encouraged to move in the direction of 
meaningful political reform. But this approach has not turned out as we 
had anticipated.
    Rather than reforming, China has deepened its authoritarianism, and 
in an era of globalization is now turning it outward. Thus, we are at 
the same time facing systems integration and systems competition. 
Although China today intersects in many ways with the global system, it 
has not become more transparent and accountable under the CCP's rule; 
rather, it has developed policies and practices that can corrode and 
undermine democratic standards.\1\
    For too long, observers in free societies have viewed trends within 
China as divorced from developments beyond the PRC. But this narrow 
view is misguided and until now has contributed to a dangerous sense of 
complacency. In an era of globalization, Beijing has internationalized 
its authoritarianism in ways that affect all of us. On this important 
anniversary of the brutal crackdown on Tiananmen Square, we are obliged 
to reflect on the China that has emerged over the past three decades 
and on how the country's leadership is pursuing its ambitions beyond 
its borders.
    A critical aspect of China's development is the massive resources 
the authorities have invested in modern technology. Such investments 
over the years have been central to the repression in the Xinjiang 
Uyghur Autonomous Region, which is functioning now as a technology-
animated police state.\2\ As China scholar Samantha Hoffman notes, 
investment by the Chinese authorities in other parts of China, 
including in Tibet, over an extensive period of time has enabled the 
building of the formidable arsenal of surveillance that today is 
evident in the Uyghur Region.\3\
    In an environment without meaningful checks on state power, the 
Chinese authorities have wide latitude for testing ever more elaborate 
methods of censorship and social management. As powerful technologies 
exert greater influence, the U.S. and other democracies are engaged in 
complex and difficult debates involving civil society, government, and 
academia over issues of privacy, surveillance, and security. Such 
debates, for all practical purposes, do not occur in China, opening up 
an enormous space for systematic abuse of the kind that has taken shape 
in Uyghur Region. As machine learning and other technological advances 
accelerate, the precision with which the Chinese government will be 
able to modernize censorship is bound to grow. Indeed, today the Uyghur 
Region itself serves as an incubator for the testing and development of 
cutting- edge technological tools of repression that invariably are 
feeding back into other parts of the PRC, but also having an impact 
beyond China's borders, including in Latin America and Africa.\4\
    Apart from the sphere of technology, Beijing has refined and scaled 
up its instruments of influence and, with them, its ability to 
manipulate the political landscape in other countries. As the 
leadership in Beijing has become more repressive domestically, China 
has grown more ambitious internationally in ways that are anathema to 
democratic values and the rule of law. Such behavior is at direct odds 
with the notion of China as a ``responsible stakeholder.''
                       a new era of contestation
    In this new era of contestation, China has claimed a larger role on 
the global stage and has sought to promote its own preferred ideas, 
norms, and approaches to governance. Beijing's unexpected ability to 
carry out digital censorship, to use economic leverage to mute voices 
in the democracies, and more generally to influence democratic systems 
abroad has created a need for fresh ways of thinking about and dealing 
with this new situation.
    As China's leadership has placed greater importance on shaping the 
political operating environment overseas, it has spent many of billions 
of dollars over the past decade to shape public opinion and perceptions 
around the world.
    Although information is increasingly globalized and internet access 
is spreading, China and other authoritarian states have managed to 
reassert control over the realm of ideas.\5\ In China, the state keeps 
a firm grip on the media environment, and the authorities in Beijing 
use digital technologies to press their advantage at home and, 
increasingly, abroad.
    Under the direction of the Chinese Communist Party, China has 
established platforms abroad for educational, cultural, and other forms 
of influence within open societies. Over time, it has become clearer 
that such initiatives tend to be ``accompanied by an authoritarian 
determination to monopolize ideas, suppress alternative narratives, and 
exploit partner institutions,'' what is now understood as ``sharp 
power,'' \6\ an approach to international affairs that typically 
involves efforts at censorship and the use of manipulation to degrade 
the integrity of independent institutions.\7\
    The authorities in Beijing have cultivated economic leverage as a 
tool for getting others to play by their rules. Beijing's approach 
seeks to reduce, neutralize, and preempt any challenges to the CCP 
regime's presentation of itself. Its state-funded research centers, 
media outlets, people-to-people exchange programs, and network of 
Confucius Institutes often mimic civil society initiatives that in 
democracies function independently of government. Meanwhile, local 
partners and others in democracies are often unaware of the logic that 
underpins China's foreign policy and how tightly the Chinese 
authorities control social groups, media, and political discourse at 
home.
    Today, the corrosive effects of China's influence beyond its 
borders are increasingly apparent in a number of crucial domains, 
including publishing, culture, academia, and media--sectors that are 
essential for determining how citizens of democracies understand the 
world around them. China's influence activities aim to discourage 
challenges to its preferred self-presentation, as well as to its 
standing or its policies. Limiting or muting public discussion of 
issues deemed unwelcome by the Chinese party-state is a critical 
characteristic of sharp power.\8\
                                 media
    Having learned to manage political ideas within their own 
countries, authoritarian regimes are now bending globalization to their 
own ends by manipulating discourse abroad, especially in the wide-open 
information space afforded to them by the democracies. Massive 
investments in overseas media infrastructure play a central role. China 
has scaled up a multifaceted effort to shape the realm of ideas.
    State dominance over political expression and communication is 
integral to authoritarian governance. Such control enables the 
promotion of favored narratives across media platforms, as well as 
through the words of state officials and surrogates. In an era of 
global information saturation and fragmentation, the authorities in 
Beijing understand the ``discourse power'' that can be exercised 
through focused and amply funded information initiatives. As the PRC's 
media platforms expand and its largest internet firms go global, 
Beijing's ability to curate information in a systematic and selective 
manner will only grow stronger, especially in places where local media 
organizations are vulnerable.
    One such place is Africa.\9\ There, China has made major 
investments in media infrastructure, and Chinese censorship tactics are 
being deployed in matters that Beijing deems sensitive. Throughout sub-
Saharan Africa, Chinese state-media outlets have bureaus with two sets 
of editors: There are African editors on the local payroll, but a group 
of Chinese editors in Beijing vets their decisions, at least regarding 
stories that the PRC feels strongly about. The Chinese government gives 
African journalists ``training'' and brings them to visit China. Real 
journalism education, however, is not the goal. Instead, the focus is 
on taking in Chinese achievements (cultural sites, big infrastructure 
projects) and on learning how to report from the Chinese government's 
perspective.\10\
    This is part of a global pattern that is also visible in Latin 
America. China's president Xi Jinping has said that he wants to bring 
ten thousand Latin American politicians, academics, journalists, 
officials, and former diplomats to China by 2020.\11\
    One example relevant to the United States was reported in November 
2015, when it came to light that China Radio International (CRI), 
Beijing's state-run radio network, was operating as a hidden hand 
behind a global web of stations on which the Chinese government 
controls much of the content. According to a Reuters investigation, 33 
stations in 14 countries ``primarily broadcast content created or 
supplied by CRI or by media companies it controls in the United States, 
Australia, and Europe.'' As part of this elaborate Chinese-government 
effort to exploit the open media space, more than a dozen stations 
across the United States operate as part of the CCP's ``borrowed boat'' 
approach, in which existing media outlets in foreign countries are used 
to project China's messages.\12\
    Through its formidable global media apparatus more generally, China 
is spreading messages abroad, using a variety of tools, about 
alternatives to democracy as models of governance, how the media can be 
controlled, and value-neutral internationalist positions in debates on 
issues such as internet governance.
                          confucius institutes
    Chinese authorities portray the Confucius Institutes as being 
similar to the British Council or the Goethe-Institut, both of which 
receive government funding to give language and culture classes. Yet 
unlike those freestanding organizations, the Confucius Institutes are 
embedded within educational institutions, most of which are committed 
to the type of free intellectual inquiry that is impossible at 
Confucius Institutes themselves.
    Many casual observers of the Confucius Institutes might not realize 
that the Confucius Institutes' constitution, found on the website of 
Hanban (the Chinese arm of the government that directs them), implies 
that Chinese law applies within the premises of the Institutes.\13\ 
Moreover, the Confucius Institutes employ staffers who at times have 
sought to block host universities from holding discussions on sensitive 
topics such as Taiwan or Tibet.\14\
    Little about these institutes is transparent; it is hard to say, 
for instance, what amount of Chinese government money goes to 
individual host universities. It is also unclear what level of control 
universities have over curricula within the Institutes because the 
agreements between these parties often remain confidential.\15\
        incubating and sharing technology toward repressive ends
    Beijing's considerable influence is increasingly evident in the 
digital space. China and other autocratic regimes have applied the 
online tools and techniques that they have refined for domestic use 
internationally as well. As noted at the outset of this statement, many 
of the techniques that are applied abroad are first incubated at the 
domestic level by the Chinese authorities. Through the online 
censorship system known as the Great Firewall, Chinese authorities have 
long been able to manage and restrict what China's people--the world's 
largest number of internet users inside a single set of national 
borders--can access when they go online. Now the government is 
increasingly applying machine learning to combine censorship and 
surveillance into comprehensive social management, a development that 
will increasingly impact global freedom of expression.\16\
    Beijing's paramount aim, it seems, is to exert control over key 
information spheres and the tools for manipulating thoughts, images, 
and ideas. Its management model is centralized and unitary.\17\ As the 
authorities in Beijing deepen their artificial intelligence (AI) 
capacities, including through massive data collection, they are likely 
to apply these technologies to devise ever more precise methods of 
social management, including predicting individual behavior and 
potential collective action.
    A recent case in Ecuador suggests some of the potential risks. 
Ecuador's negotiation under President Rafael Correa of a Chinese-
financed loan to acquire surveillance equipment and technology to power 
its ECU-911 monitoring system took place in the absence of meaningful 
public debate, and civil society is only now in a position where it can 
begin to grapple with the potential ramifications of such an extensive 
system that has already been put into place. There is evidence to 
suggest that the ECU-911 system is being used to monitor civil society 
activists and critics of the government, much as these systems are used 
in China.\18\
    In China, the companies responsible for developing these 
technologies are not only partnering with the state security apparatus, 
but are intertwining themselves within key institutions in democratic 
societies, giving them an increasing stake in the platforms and 
algorithms that determine speech on a worldwide basis. China's ambition 
to become a global powerhouse in big data, AI, and other emerging 
technologies has significant ramifications for democratic governance 
globally, yet much of civil society involved in the governance of 
emerging technologies has yet to engage on this issue in a meaningful 
way.\19\ Democracies have yet to develop a comprehensive response to 
China's plan to build digital infrastructure across key parts of the 
globe, creating a ``Digital Silk Road,'' and allowing China immense 
power over the future of the digital world.
             the corrosive effects of authoritarian capital
    Many emerging and vulnerable democracies face challenges in 
governing foreign direct investment, including weak accountability in 
public spending, opaque corporate governance, poor procurement 
oversight, and lax anti-corruption enforcement. These challenges are 
easily exploited by authoritarian regimes intent on using state-
connected financial resources for reasons other than development or 
mutual economic benefit, leading to potentially disastrous outcomes for 
open and democratic governance. When investment and foreign assistance 
is part of a meaningful public discussion involving civil society in 
developing economies, the effect can be to strengthen such essential 
features of democratic governance as citizen voice and participation, 
and transparency and accountability. If the authoritarian-linked firms 
and institutions driving the capital flows ignore or even undermine 
liberal-democratic values and concerns, however, the durability of 
democratic governance can suffer, corruption can flourish, and 
authoritarianism can find fertile ground.
    In regions such as the Western Balkans where the interests of local 
political elites, who retain power by catering to key patronage 
networks, overlap with China's high tolerance for corruption, Beijing's 
way of doing business exacerbates existing problems surrounding 
transparency and accountability.\20\ The situation in Central Europe 
and the Balkans, where young, aspiring or vulnerable democracies 
predominate, is also relevant. In countries throughout those regions 
there are indications that China has sought to utilize various forms of 
capital inflows, including equity, debt, and aid, to achieve 
geostrategic aims and divert the region from a trajectory of 
integration into the community of democratic states. Regional 
initiatives, such as China's ``16+1'' initiative (now ``17+1'' since 
the recent addition of Greece to this grouping) to strengthen bilateral 
ties with primarily former Eastern Bloc countries, offer Beijing an 
easy alternative to dealing with the EU as a whole.\21\
    In countries where projects under BRI auspices have turned sour, 
its combining of infrastructure financing with geopolitical aims has 
raised doubt and opposition. In December 2017, for instance, the 
government of Sri Lanka admitted its inability to repay the US$8 
billion that it had borrowed from Chinese firms to build a deepwater 
port at Hambantota, handing the project to Beijing on a 99-year lease 
in an instance of what critics have called ``debt-trap diplomacy.'' In 
other cases, Chinese financing for infrastructure projects under the 
BRI have seen countries take on unsustainable debt levels for projects 
of questionable economic viability. For example, in Montenegro a 
project financed by China's Export-Import Bank to link the coastal port 
of Bar by road to Serbia has been dubbed ``the highway to nowhere'' 
after the government could not afford to take out further loans to 
complete the overruns of the project.\22\
                      opacity and secrecy as norms
    Such deals with China tend to be characterized by an essential lack 
of transparency. This opacity allows China to work with partners who 
have few other options because of their poor credit ratings and 
reputation for corruption, and also, by agreeing to inflate project 
cost, Beijing is able to funnel a portion of its investment to 
influential elites in partner governments.\23\ Patterns across regions 
and sectors have taken shape that illustrate the extent of the problem. 
Several other recent cases have come to light, for instance, which 
demonstrate how Beijing's preference for working directly and 
exclusively with executive branch elites in its engagement with foreign 
governments and how this can have had a corrosive effect on the 
integrity of institutions and governance more broadly.
    When Panama and El Salvador switched diplomatic recognition from 
Taiwan to the People's Republic of China, key government, private 
sector, and civil society actors were kept in the dark until after 
official announcements were made. In the case of El Salvador, its 
congress has launched an effort to review and halt the advancement of 
an accompanying agreement to establish a special economic zone that 
would comprise 14 percent of the country's territory in strategic areas 
along the coast and give preferential benefits to Chinese firms.\24\ 
Only a few weeks ago, more than a dozen other agreements that the El 
Salvadorian president had reached with China were made public for the 
first time, spanning from promoting the Belt and Road Initiative, to 
scientific and technological cooperation, and educational exchange, 
among others. In all of these cases, civil society and policymakers 
have been forced to play catch up in order to understand the 
implications of how such agreements may impact their countries and to 
retrofit monitoring and accountability mechanisms.
    In Argentina, a deal reached with the Cristina Kirchner 
administration saw the People's Liberation Army given a fifty-year 
lease to build and operate a space observation station with dual-use 
capabilities in Patagonia. After recent reporting revealed the 
agreement provided the Argentine government with no mechanisms for 
oversight or access to the station,\25\ Argentina's national congress 
launched an investigation and is seeking to revisit the agreement.\26\ 
In Africa, agreements on major deals also fit the pattern.\27\
    The pattern of China's engagement that has taken shape globally has 
not eluded the U.S. In recent years, reports of influence that were 
once episodic have become more frequent as journalists and other 
observers have begun to look more closely; the patterns of opacity and 
manipulation that have characterized China's engagements in other parts 
of the world have come to light here. China's Influence and American 
Interests, a report produced by the Hoover Institution and the Asia 
Society and released in November 2018 found that ``in certain key ways 
China is exploiting America's openness in order to advance its aims on 
a competitive playing field that is hardly level. For at the same time 
that China's authoritarian system takes advantage of the openness of 
American society to seek influence, it impedes legitimate efforts by 
American counterpart institutions to engage Chinese society on a 
reciprocal basis.''
    This report further observed that ``China's influence activities 
have moved beyond their traditional United Front focus on diaspora 
communities to target a far broader range of sectors in Western 
societies, ranging from think tanks, universities, and media to state, 
local, and national government institutions. China seeks to promote 
views sympathetic to the Chinese government, policies, society, and 
culture; suppress alternative views; and co-opt key American players to 
support China's foreign policy goals and economic interests.'' \28\
   acknowledging, and competing in, the emerging contest over values
    Given China's rapid emergence on the world stage and its more 
visible authoritarian internationalism, it seems we are approaching an 
inflection point. If anything, the challenge presented by China and 
other ambitious, internationalist autocratic regimes has grown in the 
most recent period. At the same time, the democracies are only slowly 
waking up to the fact that they have entered into an era of serious and 
strategic contestation based on governance models.
    The conflict over values that has taken shape globally is one 
between autocratic regimes, on the one hand, whose animating governance 
principles favor state control, management of political expression, and 
privileging ``rule by law'' over rule of law, versus democratic 
systems, on the other, whose principles are based on open societies, 
free and independent expression, and rule of law. In an era of 
globalization, the struggle over these fundamental values is being 
waged in every region and across diverse polities. How this battle 
plays out will define the character of the world we live in.
    To date, much of the response to the China challenge from the 
democracies has focused on the trade and military dimensions, both of 
which properly deserve attention. But we must deal with the fact that 
much of Beijing's activity in recent years may be related to but is 
distinct from these domains. In order to compete, the U.S. and other 
democracies will need to address this gap in the sphere of values. And 
at a fundamental level, any response to this global challenge also 
needs to consider the essential importance of democratic development in 
China itself.
       developing a comprehensive response to the china challenge
    Given its corrosive impact on critical democratic institutions, 
China's authoritarian internationalism poses both a rule-of-law and a 
national security challenge. The following are key steps, drawn from 
the International Forum for Democratic Studies' sharp power report, 
which can be taken to address the Beijing's influence efforts:
    Address the large knowledge and capacity gap on China. Information 
concerning the Chinese political system and its foreign policy 
strategies is limited in many of the societies where China is deeply 
engaged. This asymmetry places societies at a distinct strategic 
disadvantage. There often are few journalists, editors, and policy 
professionals who possess a deep understanding of China--the Chinese 
Communist Party, especially--and can share their knowledge with the 
rest of their societies in a systematic way. Given China's growing 
footprint in these settings, there is a pressing need to build capacity 
to disseminate independent information about China and its regime. 
Civil society organizations should develop strategies for communicating 
expert knowledge about China to broader audiences.
    Deepen understanding of authoritarian influence. China's sharp 
power relies in part on disguising state-directed projects as 
commercial media or grassroots associations, or using local actors as 
conduits for foreign propaganda or tools of foreign manipulation. To 
respond to these efforts at misdirection, observers need the capacity 
to put them under the spotlight and analyze them in an independent and 
comprehensive manner.
    Move beyond transparency. Enhancing transparency as a way of 
safeguarding democratic societies against undesirable Chinese party-
state influence is a necessary but insufficient step. Once the nature 
and techniques of authoritarian influence efforts are exposed, 
countries should build up internal defenses. Authoritarian initiatives 
are directed at cultivating relationships with the political elites, 
thought leaders, and other information gatekeepers of open societies. 
Such efforts are part of Beijing's larger aim to get inside such 
systems in order to incentivize cooperation and neutralize criticism of 
the authoritarian regime. Support for strong, independent civil society 
is essential to ensuring that the citizens of democracies are 
adequately informed to evaluate critically the benefits and risks of 
closer engagement with Beijing and its surrogates.
    Prioritize democratic solidarity. Beijing and its surrogates are 
exerting pressure on independent institutions within free societies to 
an extent that would not be imaginable during the Cold War. The 
leadership of institutions essential to the functioning of the public 
sphere within democratic societies--publishers, university 
administrators, media and technology executives, and others--in the 
past did not need to take into account to such a degree the prospect of 
manipulation or censorship by external authoritarian powers. Today, 
however, the exertion of sharp power makes it necessary for them to 
renew and deepen their commitment to democratic standards and free 
political expression. To address this challenge, common standards must 
be developed, with the aim of reducing these institutions' exposure to 
divide and conquer dynamics in order to safeguard their integrity over 
the long term.
    Accelerate learning through cooperation with democratic partners. A 
number of countries, Australia especially, have already had extensive 
engagement with China and can serve as an important point of reference 
for countries whose institutions are at an earlier stage of their 
interaction with Beijing.\29\ Given the complex and multifaceted 
character of Beijing's influence activities, such learning between and 
among democracies is critical for developing responses that are not 
only effective but consistent with democratic standards.

------------------
Notes

    \1\ Christopher Walker, ``Authoritarian Regimes are Changing How 
the World Defines Democracy,'' Washington Post, June, 13 2014.
    \2\ Chris Buckley and Paul Mozur, ``How China Uses High-Tech 
Surveillance to Subdue Minorities,'' New York Times, May 22, 2019.``How 
Mass Surveillance Works in Xinjiang, China,'' Human Rights Watch, May 
2, 2019. Gerry Shih, ```Police Cloud': Chinese Database Tracks Apps, 
Car Location and Even Electricity Usage in Muslim Region,'' Washington 
Post, May 2, 2019. Josh Chin and Clement Bubrge, ``Twelve Days in 
Xinjiang: How China's Surveillance State Overwhelms Daily Life,'' Wall 
Street Journal, December 19, 2017.
    \3\ Samantha Hoffman, ``China's Tech-Enhanced Authoritarianism,'' 
Testimony before House Permanent Select Committee on Intelligence, 
Hearing on ``China's Digital Authoritarianism: Surveillance, Influence, 
and Political Control,'' May 19, 2019.
    \4\ Authur Gwagwa and Lisa Garbe, ``Exporting Repression? China's 
Artificial Intelligence Push into Africa,'' Net Politics Blog, Council 
on Foreign Relations, December 17, 2018. Simon Allison, ``How China 
Spied on the African Union's Computers,'' Mail and Guardian, January 
29, 2019. Evan Ellis, ``Chinese Surveillance Complex Advancing in Latin 
America,'' Newsmax, April 12, 2019. Angus Berwick, ``How ZTE Helps 
Venezuela Create China-style Social Control,'' Reuters, November 14, 
2018.
    \5\ Xiao Qiang, ``The Road to Digital Unfreedom: President Xi's 
Surveillance State,'' Journal of Democracy, no. 1 (2019): 53-67.
    \6\ Christopher Walker and Jessica Ludwig. ``The Meaning of Sharp 
Power: How Authoritarian States Project Influence.'' Foreign Affairs, 
November 16, 2017.
    \7\ International Forum for Democratic Studies, ``Sharp Power: 
Rising Authoritarian Influence'' (Washington, D.C.: National Endowment 
for Democracy, 2017).
    \8\ Christopher Walker, Shanthi Kalathil, and Jessica Ludwig, 
``Forget Hearts and Minds.'' Foreign Policy, September 14, 2018.
    \9\ See, for example: Andrea Vega Yudico, ``China's Multi-Billion 
Dollar Telecommunications Investment in Africa Poses Threat to 
Independent Media,'' Center for International Media Assistance, October 
24, 2017. Nick Bailey, ``East African States Adopt China's Playbook on 
Internet Censorship,'' Freedom House, October 24, 2017.
    \10\ Emeka Umejei, ``Will China's Media Influence African 
Democracies?'' Power 3.0, 2 April 2018.
    \11\ Juan Pablo Cardenal, ``China's Elitist Collaborators,'' 
Project Syndicate, 17 April 2018.
    \12\ Koh Gui Qing and John Shiffman, ``Beijing's Covert Radio 
Network Airs China-Friendly News Across Washington, and the World,'' 
Reuters, November 2, 2015.
    \13\ Rachelle Peterson, ``Outsourced to China: Confucius Institutes 
and Soft Power in American Higher Education,'' National Association of 
Scholars, June 2017.
    \14\ Ibid.
    \15\ Bethany Allen-Ebrahimian, ``House Proposal Targets Confucius 
Institutes as Foreign Agents,'' Foreign Policy, March 14, 2018.
    \16\ Paul Mozur, ``China Presses Its Internet Censorship Efforts 
Across the Globe,'' New York Times, March 2 2018.
    \17\ Qiang, ``The Road to Digital Unfreedom: President Xi's 
Surveillance State.''
    \18\ Paul Mozur, Jonah Kessel, and Melissa Chan, ``Made in China, 
Exported to the World: The Surveillance State,'' New York Times, April 
24, 2019.
    \19\ Lindsay Gorman and Matt Schrader, ``U.S. Firms are Helping 
Build China's Orwellian State,'' Foreign Policy, March 19, 2019.
    \20\ Kurt Bassuener, ``Pushing on an Open Door: Foreign 
Authoritarian Influence in the Western Balkans,'' National Endowment 
for Democracy, May 2019.
    \21\ Martin Hala, ``The 16+1 Initiative: China's Divisive Equation 
for Central and Eastern Europe,'' Power 3.0, June 5, 2018.
    \22\ Noah Barkin and Aleksandr Vasovic, ``Chinese `highway to 
nowhere' haunts Montengro,'' Reuters, July 16, 2018.
    \23\ Jonathan Hillman, ``Corruption Flows Along China's Belt and 
Road,'' Center for Strategic and International Studies, January 18, 
2019.
    \24\ Benjamin Russell, ``What a Controversial Deal in El Salvador 
Says About China's Bigger Plans,'' Americas Quarterly, April 23, 2019.
    \25\ Cassandra Garrison, ``China's Military-Run Space Station in 
Argentina is a `Black Box,''' Reuters, January 31, 2019.
    \26\ Cassandra Garrison, ``Argentine Lawmakers Seek Greater 
Oversight of Chinese Space Facility in Patagonia,'' Reuters, March 29, 
2019.
    \27\ ``Report: Kenya Risks Losing Port of Mombasa to China,'' The 
Maritime Executive, December 20, 2018.
    \28\ China's Influence and American Interests: Promoting 
Constructive Vigilance, ed. Larry Diamond and Orville Schell, the 
Hoover Institution, November 29, 2018.
    \29\ See, for example, John Fitzgerald, ``China in Xi's ``New 
Era'': Overstepping Down Under,'' Journal of Democracy, no. 2 (2018) 
and John Garnaut, ``How China Interferes in Australia,'' Foreign 
Affairs, 9 March 2018.

    The Chairman. Well, thank you so much. All three of you 
have provided a perspective for us and corroborates what a lot 
of us have read from time to time. It is a chilling picture 
that starts to emerge of what is happening in China as far as 
people's privacy, as far as the surveillance, and their real 
inability to do anything that the government is not looking 
over their shoulder on.
    Mr. Walker, you raised an interesting point. I would like 
you to expand on that a little bit, if you would, and that is 
the proliferation of technology to open countries as far as 
their use of these technologies to surveil their own people. 
Could you talk about that for a couple minutes?
    Mr. Walker. Thank you, Senator.
    This transcends the technology issue but it is a critically 
important part of the discussion.
    So the focus on what we might call the authoritarian 
fraternity where repressive states deal with repressive states 
is one part of the discussion. But if we think about how the 
relationship between China and countries such as Ecuador today 
or Argentina or countries in the Balkans is evolving, in Serbia 
where there is far deeper engagement with China today than 
there was, say, 5 or 6 years ago, these are essentially open 
settings. They have struggles to achieve democratic reform, but 
all of these societies are looking to do so. In each of these 
cases, the privileging of secrecy, the transferring of 
technologies, as we have learned in the Ecuadorian case that, 
in fact, can have applications that are used for purposes that 
are not consistent with privacy and the rule of law. This is 
something that needs far greater scrutiny.
    And my fear is that because the expertise we have available 
today either knows China, on the one hand, or some of the 
countries we are talking about, on the other hand--there is 
what I would call a strategic gap in meaningfully addressing 
some of the issues that countries in Latin America, sub-Saharan 
Africa are facing.
    Sophie mentioned Ethiopia and ZTE. Ethiopia right now has 
the promise of democratic reform but itself, as I understand, 
has ZTE, Huawei, and StarTimes as its principal tech and 
content providers. So it is solely China that has both the 
ability to create choke points for content in that setting and 
also to manipulate the tech environment.
    The Chairman. You made reference to rule of law. Very few 
countries, if any, other than the United States, have the kind 
of laws that provide for privacy of their own citizens. So how 
does that play into that? I mean, if they go to a country that 
does not have those kind of laws, really there is nothing to 
stop the government from converting themselves into an overseer 
of the population.
    Mr. Walker. So I think it is true that in authoritarian 
settings, the safeguards that one would hope for do not exist 
on rule of law, privacy, and other such issues. In some of the 
countries we have been discussing that are weak democracies or 
vulnerable democracies, they may well have laws on the books 
that provide such safeguards, but I would suggest that they are 
in greater jeopardy through this deep engagement with China and 
that this provides a vulnerability that was not really in view 
as recently as 5 or 6 years ago and it is something we are only 
coming to terms with now.
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you all for your testimony.
    I agree that China's so-called long arm and influence 
abroad is having implications in human rights issues around the 
world. For example, we recently saw that Amnesty International 
was denied a lease in New York after a Chinese state-owned 
enterprise was involved. Just a few days ago, more than 1,000 
Twitter accounts associated with Chinese human rights activists 
and defenders were mysteriously shut down. We have seen the 
Chinese Government pressure Southeast Asian countries to detain 
and deport activists or ethnic minorities, such as Uyghurs.
    So the question is, are we equipped to confront these 
global human rights challenges that China presents? Are there 
things that we can better do with our partners, allies, and 
activists on the ground to tackle this issue across the world? 
I would like to hear, Ms. Richardson, if you have some 
perspectives on that.
    Dr. Richardson. Thank you, Senator. It is a broad question. 
Maybe I can give you an example that speaks to your question, 
also what the chairman was just asking about.
    Earlier this year, we were looking into censorship of 
WeChat, which is a social media platform that is used by 
Chinese speakers all over the world, particularly Chinese 
speaking diaspora communities, including in the U.S. And we 
came upon an example in which a Canadian member of parliament 
who is herself of ethnic Chinese descent had been communicating 
with her own constituents through her WeChat account, and she 
had posted both on her WeChat account and on her Facebook page 
some remarks that were sympathetic towards the pro-democracy 
movement in Hong Kong. And it was not until we contacted her 
office to point out that the messages that had been posted on 
WeChat, which is of course owned by a large Chinese company, 
had been censored. We were not able to ascertain who exactly 
had done that. She and her staff had not been aware of it.
    But I think it is a very powerful example partly of the 
phenomenon that Chris is talking about, about spaces in 
democratic countries that are being exploited partly because 
they are not being watched very carefully. It is not the habit 
of elected members of bodies in democratic countries to worry 
about their communications with their own constituents being 
censored especially by entities in some other country. So I 
think there is much to be done in the realm of simply being 
vigilant to these threats.
    We did some work earlier this year about threats to 
academic freedom outside of China but as a result of Chinese 
Government pressure. Every single school that we spoke to 
certainly has honor codes and codes of conduct that speak to 
issues like cheating and plagiarism. We could not find a single 
one that had on its books any particular rules or instructions 
or guidelines to even look for examples of embassies 
threatening students or demanding that they share information 
with the nearest consulate.
    So the problem now is not even so much about changing or 
updating the laws but being vigilant to these kinds of threats 
and taking steps to guard against them.
    Senator Menendez. Let me ask you, Mr. Walker, in this 
regard, the NED's report on sharp power, a document to how the 
Chinese Government is using the space provided by open 
societies to infiltrate and spread their propaganda. And the 
lack of reciprocity in U.S.-China relations is evident not only 
on trade issues but also when it comes to freedom of 
information, movement, and academic freedom.
    Do you think that the Congress should explore further ways 
to enforce reciprocity in U.S.-China relations beyond trade? 
Does the Reciprocal Access to Tibet Act and its implementation 
provide a model for other areas?
    Mr. Walker. So I think the Tibet issue is emblematic of the 
larger challenge. And I would commend everyone here to a report 
produced by the Hoover Institution and the Asia Society which 
focused on this very issue. And it observed that the Chinese 
authorities systematically deny American institutions access to 
Chinese society, whether we talk about educational exchange, 
cultural exchange, media engagement. We know this from both the 
harassment that our independent media faces, as well as our 
public broadcasters that are seeking to reach Chinese 
audiences. And at the same time, American counterpart 
institutions are not afforded the same opportunities.
    I think this is not, in my view, a binary choice between 
simply denying China access here as a way of responding. I 
think we need to be creative, and we need to think about ways 
to publicly shine a light on the fact that China is so stingy 
with access to our institutions. I do not think we have done 
that enough. That is a first step. That does not cost too much 
to make a point that this is the way their system is operating. 
This is the way they treat their own people, denying them 
access to perfectly legitimate conversations about a range of 
issues, corruption, human rights, press freedom. They do not 
permit such freedoms there, and they do not permit it for their 
own people. They do not permit it for democratic institutions. 
I think the first step is to have a much more robust discussion 
to engage on this, and I think that would go a long way towards 
setting some wheels in motion.
    Senator Menendez. Finally, what should we do about U.S. 
companies that are involved in providing equipment and other 
forms of elements of the surveillance that China is using at 
home and promoting abroad? What should be our policy in that 
regard?
    Dr. Richardson. I think at least until such time as we can 
determine, or an independent credible entity can determine, 
that the political education camps in Xinjiang have been 
closed, I think an end-user ban on selling just about anything 
to any part of the Xinjiang government is appropriate.
    Longer term, the UN has set out guidelines for business and 
human rights that require that each company have a due 
diligence strategy in place to assure that the company does not 
have policies or practices or is conducting business in ways 
that contribute to or enable human rights.
    We have had a lot of conversations in the last couple of 
years with many different kinds of companies, and while most of 
them have some form of a corporate social responsibility 
policy, when you ask for an actual due diligence strategy, what 
steps is that company taking to see who it is selling to, what 
it is selling, most of them do not have it.
    And it is worth pointing out that Thermo Fisher had all the 
right export licenses to sell what it did. We were never 
contesting that. But the problem with a lot of current export 
controls is that they have not kept up with what technology is 
in demand by Chinese authorities for abusive purposes. So while 
it is still illegal, as a result of the Tiananmen sanctions, to 
sell, for example, handcuffs to the Public Security Bureau, it 
is perfectly legal to sell DNA sequencers. So there are big 
gaps I think in the export controls that can and should be 
closed.
    Senator Menendez. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman. Thank you very 
much for holding this incredibly important hearing.
    And thank you to the witnesses for your testimony today.
    I was proud to work with you, Mr. Chairman, the ranking 
member, and many members of the committee on Senate Resolution 
221 to remember the tragic events at Tiananmen Square 30 years 
ago, and I hope this resolution is something that we can pass 
out of the Senate as quickly as possible in recognition of 
that. And I urge all my colleagues to support it. We have to, 
as a Senate, as a country, continue to demand that the 
Communist Party of China account for this activity and respect 
the basic human rights of the Chinese people. We should empower 
people around the globe to know the truth of Tiananmen. 
Tiananmen was not a fake. It was not a fake moon landing. It 
was not a figment. It was real. People were killed by an 
authoritarian state. We must continue to share the truth and 
not to allow crime against humanity to be censored away.
    Just a couple days ago, hundreds of Chinese dissident 
voices had their accounts suspended on Twitter. You can see the 
firewalls that have been put in place, the banishing of chat 
groups and discussion groups and websites that just seem to 
undergo routine maintenance right around the time of the 30th 
anniversary of Tiananmen Square.
    As evident from the abuses in Xinjiang and Tibet, China's 
human rights record has only worsened in the last 30 years.
    This is why the administration and Congress must now act to 
send a strong message to Beijing that the United States will 
not abide by such abuses. The Gardner-Markey Asia Reassurance 
Initiative, signed into law on December 31st, authorizes the 
administration to impose sanctions against any individual or 
entity that, quote, violates human rights or religious freedoms 
or engages in censorship activities. We should take up this 
language immediately.
    Section 409(a)(2) of ARIA also authorizes funds 
specifically to promote democracy, the rule of law, and human 
rights in the People's Republic of China.
    I want to follow up on what Senator Menendez had talked 
about. The Wall Street Journal just reported not too long ago 
that many U.S. companies continue to do business in Xinjiang 
and perhaps are either wittingly or unwittingly complicit in 
the violations that are taking place, the violations of human 
rights that are taking place there.
    But we have even more challenges because as Beijing 
encourages investment in Xinjiang to draw jobs there, there are 
subcontractors who are very much a part of the supply chain 
that are going to Western companies headquartered here that are 
participating in human rights violations.
    We know that China is going to try to interfere in Taiwan's 
election coming up over the next several months.
    We know that several pension funds in the United States are 
involved and make investments in one of the largest 
surveillance companies in China that is actively being used to 
violate human rights of Uyghurs and beyond.
    We have authorized a lot of legislation, a lot of funding 
to help address this and meet this challenge.
    I would love to hear from you. How do we make sure that we 
best tailor the funds that we have authorized to address these 
human rights violations and what we can do to support human 
rights defenders in China? I would just open that up to any of 
you.
    Mr. Xiao. Senator, thank you for starting to say we should 
continue to tell the world about the truths of Tiananmen. We 
know that in China that truth has been repressed. And through 
my own work, I watch--my China Digital Times team--watch the 
Chinese Internet very closely. Over the past 8 years, every 
year, that by the time near June 4th and the last 3 weeks, 
there is always intensified suppression of the online content 
about Tiananmen. Chinese do speak out, but they are being 
suppressed.
    I give you the examples, just examples. Over 264 words are 
blocked by the Sina Weibo search engine. By the way, Sina Weibo 
is like China's equal on Twitter, 600 million users. And also 
on the Wall Street index, it is the company here. Look at what 
kind of words are being blocked. Yes, of course, ``64,'' 
``89,'' ``8x8,'' ``65-1,'' or ``98,'' not only ``June 4th'' but 
``May 35th'' to translate to June 4th. The Chinese are using 
those words to create conversations, but they are being stopped 
by the censor and deleted. There are more, ``anniversary,'' 
``pay respect,'' ``mourn,'' ``candle,'' ``public square.'' And 
how about this? Near the date to June 4th, there will be a ban 
of the word ``today'' or ``that day.'' Why? Because once you 
search that ``today,'' most of the discussion is about June 
4th. The censors are not quick enough to delete them. So they 
just ban the search words. And ``move'' and ``fire'' and there 
is a Chinese character that looks like a tank that means point. 
So anybody say ``point, point, point,'' that means ``tank, 
tank, tank.'' That is the code word that has been banned.
    So it is not that Chinese people are just born to be 
creative to speaking those things. It is because they have a 
motivation to speak, but the technology and the censorship and 
the repression is much harder to suppress those voices.
    Now, a government like that cannot face the truth and 
accountability to Tiananmen, how can the world trust its myth 
of a peaceful rise. No. You treat the Chinese people this way 
when you are getting powerful. That oppression is not going to 
stop by the Chinese border. And this is what we are facing.
    And you are asking how do we appropriate funds effectively. 
I will start from freedom of expression, free flow of 
information on the Internet. Yes, the Chinese state is 
powerful. I keep on saying that, but it is also fragile and 
insecure. Simply when you meet a Chinese leader, if they are so 
powerful, why do they not just take off, stop the Great 
Firewall just for 6 months? Try it. Let the information flow. 
Let the Chinese people access all the other content on the 
Internet for just 6 months. Why do you not take down the Great 
Firewall? The regime cannot afford it. It is that fragile, and 
that is why that is so brutal.
    Senator Gardner. Thank you for sharing that Tiananmen 
truth.
    The Chairman. Thank you so much.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you to each of our witnesses for being here 
today.
    Last February, a number of us journeyed to the Munich 
Security Conference. One of the meetings that we had was with 
the prime minister of Greece. And one question that we had for 
him was about Greece's acceptance of support from China for the 
Port of Piraeus. And one of his responses was very memorable to 
that. He said I asked for help from the European Bank, and I 
was denied. I asked for help from the United States, and I was 
denied. The Chinese were willing to help me.
    So can any of you speak to the ways in which China uses its 
economic leverage to spread its political system and whether we 
are doing enough in the United States to respond to that? Mr. 
Walker, do you want to begin?
    Mr. Walker. Thank you, Senator.
    I think that example is illustrative of a much larger 
challenge. You spoke in a strategic port context, but I think 
one of the things we have not touched on yet, which is so 
critical, is that China is investing enormous resources into 
people-to-people exchanges, into media, into educational 
initiatives. And there was a time when observers of these 
things, going back not that long ago, were quite dismissive of 
these issues. But now it is impossible to travel to Africa, to 
Latin America, to Central Europe and not to meet someone who 
has got this sort of opportunity. And what they say is, look, 
we are getting these opportunities. They are paying our way, 
and we are not getting these opportunities from our democratic 
partners, including the U.S.
    And I think if we are serious about competing and meeting 
the values challenge, we have to be more deeply engaged across 
all of these areas. It is something we have to come to terms 
with.
    Dr. Richardson. Thanks, Senator, for the question.
    I will just have one other example which is that it used to 
be in our universe a fairly easy thing to do to ask the 
European Union to speak with one voice about human rights 
issues in China. That has become exponentially more difficult 
in recent years largely as a result of Chinese financial 
developments in Southern Europe and the rise of institutions 
like the 16 plus 1. It is clearly there to try to split EU 
solidarity. I think we see that across not just blocs like the 
EU but even within individual governments that have 
historically been reasonably strong on these issues where 
people within those governments are clearly feeling the 
pressure between possibly losing out on a trade deal and taking 
a principled position. Often what we try to point out is that 
they can do both. Typically they can get away with doing both. 
But increasingly people within governments are convinced that 
they cannot and they have stopped trying. And that is a serious 
challenge for human rights advocacy.
    Senator Shaheen. And so are we doing enough in the United 
States to counter that economic commitment that China is making 
to many of these countries?
    Mr. Walker. So I think fundamentally no. But it goes 
beyond, in my view, the economic question. I think there has 
been a misapprehension over the last generation that China was 
pursuing its interests solely on the basis of economics, and 
China's engagement in all the settings we look at comes without 
other features, including politics and values. This was another 
misapprehension. The values that come with China's engagement 
aims to get partners to set aside certain subjects, sideline 
civil society participation, and otherwise, in one way or 
another, to censor discussion on certain issues of importance 
to the CCP. And this is critically important because this 
censorship starts to grow roots, it becomes a larger problem.
    Sophie alluded to this idea of divide and conquer that has 
emerged within the context of the 16 plus 1 in Central Europe 
which is now the 17 plus 1 because Greece has joined that set 
of countries. China uses this essentially as a bilateral 
initiative to operate with the 17 countries. This is happening 
both at the state level as well as within states where our 
universities and cultural institutions and media enterprises 
are finding is that they too can be picked off when they are 
engaging with China.
    And so we need to cultivate the capacity that was not 
necessary even a decade ago, which is ways to create common 
standards and greater solidarity among our democratic 
institutions because if they are faced with the China party 
state on their own, they are going to have a really hard time.
    Senator Shaheen. My next question I think is--and I only 
have a little bit of time left, but for you Mr. Xiao. Certainly 
we read reports in the United States about efforts on the part 
of Chinese who are trying to speak out against the repression 
that is going on in China. One of the things that we have seen 
reports on in the last decade or so has been an effort in China 
to respond to schools that are collapsing because of shoddy 
construction and children being killed, to the environmental 
concerns that the Chinese people have, to health issues that 
are there. Is the surveillance state also squashing those 
movements as well?
    Mr. Xiao. If they are independent movements from the civil 
society and pressing the government and giving real pressure, 
then yes.
    At the same time, the technology development in China also 
does services, also make the economy growing, also make 
people's lives smoother. And the government provides better 
services really as long as they do not challenge the one-party 
dictatorship. That is the part that they will put a foot on.
    So on the issue of whether Chinese people see whether there 
is privacy that should be protected or whether the technologies 
should be implemented in a society, the problem is there is no 
public discussion. It would not allow it.
    For example, the social credit system everybody is talking 
about. We know how Orwellian this can be. But right now, they 
have not quite gotten there. They have not connected to the 
central database facial recognition and all of these together 
yet, but it is on its way. But the idea has been started from 
even 2004, as early as that. As soon as they see they want to 
introduce it in the western America, for example, the credit 
system from financial transactions, immediately the government 
see they can expand that to the social area, and that becomes 
an entirely different issue. And then as China does many 
things, they have a general policy goal, but then they let the 
local governments do the experiment, pilots, to experiment how 
those things will play out, and they will pick what works or 
not and then expand.
    So there is one county in 2004 in Jiangsu Province. That 
party secretary went ahead to have the social credit system 
within his county, put credits on everybody, on the ordinary 
people. If they have a petition to the government, that is a 
negative credit. If they do something, disobey the government 
regulation, that is a social credit. And that experiment was 
reported in China by the Chinese media, and it generated a huge 
controversy. And there was a lot of criticism and discussion at 
the time because the Chinese media at that time had a little 
room. And the public discussion is no different than what we 
see now. Hey, this is violating people's rights, and this is 
too much power for the government. Because at the time, it was 
a local government doing the experiment, the people would just 
take advantage and say, hey, it is just the local government 
that went too far.
    But that discussion was being censored later on. For a 
couple years, it was there in official media, but then now it 
has disappeared. Nobody says negative things about the social 
credit system anymore. And that local government has continued 
experimenting on social credit. They may modify it. They may 
revise. But the experiment continues.
    Now there are over 40 pilot projects and expanding, but the 
public discussions on those issues, zero. And that is what is 
happening in China.
    The Chairman. Thank you, Senator Shaheen.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. John, just a second. Before you start, for 
those of you who see us coming and going, I want to explain 
that for a minute. The leadership recently scheduled four votes 
over the top of this meeting. But because of the importance of 
this particular issue, we decided not to put the meeting off. 
We are going to continue on. So we are going to have to step 
out and vote from time to time, but various members will 
preside.
    So, Senator Barrasso, I am going to go vote and Senator 
Romney you can chair, if you would.
    Senator Barrasso. Thank you, Mr. Chairman.
    This weeks marks the 30th anniversary of the Tiananmen 
Square massacre. People around the world continue to remember. 
On June 4th, 1989, the Government of China sent tanks into 
Tiananmen Square to violently suppress and forcibly disperse 
peaceful demonstrators. The Chinese Government's infantry 
troops opened fire on students and on activists who were 
standing up for their fundamental freedoms. The horrible events 
resulted in the death and injury of hundreds of courageous 
Chinese citizens who were killed, tortured, and imprisoned due 
to their participation in a peaceful democracy movement in 
Tiananmen Square.
    The Chinese authorities to this day continue to block and 
censor public discussions and events marking the anniversary of 
Tiananmen Square.
    But despite those efforts, the world has not forgotten. You 
go to the front page of the Wall Street Journal today and here 
it is. Hong Kong remembers Tiananmen Square victims 30 years 
on. You go to the front page of the New York Times today with a 
picture of the crowds in the streets. A perilous anniversary. 
Thousands gather Tuesday in Hong Kong on the 30th anniversary 
of the crackdown of Tiananmen Square in Beijing. You go to the 
Financial Times, front page picture of the candles lit and 
held. Hong Kong pays tribute to Tiananmen Square.
    So the world has not, nor will it ever forget. We will 
always remember. We have not forgotten the courage, the pain, 
the brutality of the Government of China that it imposed. In 
fact, those who suffered and died, I think, inspired future 
generations to proudly demand freedom and democracy across the 
globe, which is why I am happy that the three of you are here 
today speaking out.
    The United States has a long record of championing liberty 
and freedom around the globe. We must continue to support 
individuals who are demanding freedom of speech, freedom of 
assembly, freedom of religion. And the harassment, detention, 
and imprisonment of Chinese citizens exercising their rights 
continues today, and we will continue to speak out.
    So the question to the three of you is what is the most 
effective approach in your minds for us to engage the 
Government of China on human rights and fundamental freedoms.
    Dr. Richardson. Thank you, Senator, both for the lovely 
remembrance and the question.
    This is not a time in history when the Chinese Government 
is eager to have an honest conversation about human rights 
because it knows it does not have a good story to tell. And we 
are certainly aware that many governments, including the U.S., 
continue to try to have that conversation, but frankly, I think 
those discussions veer on the perverse if not the 
counterproductive because often the Chinese Government will 
take what is said to it by another government about human 
rights issues and twist it or misreport it. And I think that 
can be very discouraging for people across the country to see 
if, in fact, they are able to know about it at all.
    I think there is much to be said at this point in time for 
governments pursuing, for example, things like shadow human 
rights dialogues with independent activists. There are many 
people standing in Washington right now who would be incredible 
to have debates with about the trajectory for the rule of law 
in China, how to deal with certain kinds of social issues, how 
to deal with press freedom. And I think for governments to 
engage those people at a level and with a degree of recognition 
that might normally be reserved only for another government, I 
think, does a couple of different things. First, it empowers 
that community and gives it the recognition it deserves. And I 
think arguably most important, it sends a message to Beijing 
that those are not the only actors to have these conversations 
with.
    Senator Barrasso. Anyone else want to add?
    Mr. Xiao. Yes. To answer the question of how to best 
empower the Chinese people who are fighting against the 
communist regime, let us learn from our enemy. President Xi 
Jinping this February had an important meeting to his cadre. It 
is about preventing potential risks, severe risks. And in that 
speech, some of it made public, he highlighted two things that 
he worried about as risks: one, Internet; two, youth. He is 
afraid that a new generation of Chinese youth are having 
different value systems that he would not like these people to 
have. He has his fears, but his fears should be our advantages.
    His dream of a China dream, that empire dream, repressing 
the Chinese people and putting surveillance cameras everywhere 
that the Chinese Communist Party can last for another 100 years 
is a nightmare for the Chinese citizens. It is a nightmare for 
the entire world. Everybody values freedom. So to go against 
that is the right way.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Romney [presiding]. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Thank you all for your work. Mr. Xiao, we salute your 
personal commitment to stand up for human rights after the 
Tiananmen Square massacre. This anniversary really gets focused 
on in America maybe not as often as it should on these human 
rights abuses.
    Ms. Richardson, we appreciate the reporting by Human Rights 
Watch on China's high tech surveillance efforts against the 
Uyghur and other communities. Last month, the New York Times 
described how Beijing is exporting its mass surveillance model 
to other governments. And a Rohingya human rights activist told 
the East Asia Subcommittee in April that it was worried that 
China could export this surveillance technology to Burma to 
further repress the Rohingya.
    I wrote a letter to Secretary Pompeo asking him to clarify 
the administration's actions in terms of countering China's 
actions. As we wait for a response, I would like to ask you, 
what do you think the administration should do as China exports 
surveillance technology and surveillance training to other 
countries?
    [The information referred to is located at the end of 
hearing.]
    Dr. Richardson. Thank you, Senator, for the question.
    I think at the absolute top of the to-do list is making 
sure that U.S. companies are not in any way engaged in or 
supporting any kind of censorship itself.
    It may be of interest to you that I think about 2 weeks 
ago, it was reported that the City of Mandalay was actually 
contemplating partnering with a Chinese company to build a 
smart cities network in that particular area. That is a term 
that is used to describe a very comprehensive surveillance 
architecture in particular areas. Often it is presented as 
being in service of public safety, but it allows for enormous 
surveillance.
    Senator Markey. Mr. Xiao, what would you want the United 
States to be doing?
    Mr. Xiao. First of all, now we are starting to really need 
to have a very clear eye on what China's--those trade practices 
are, both domestically and internationally. It is just a 
political project. It is not just about free trade. Even they 
are under the disguise of private companies, but the state has 
what they call a strategic goal for national willingness or 
national will. And that strategic goal, grand strategic goal, 
will translate into subsidizing some of those strategically 
important private companies to go to the One Belt and One Road, 
to the other countries developing certain technologies, build 
up certain trade relations, and taking advantage of open 
society that the rule of law or the diversity of society and 
the free trade and all of that.
    Senator Markey. We are kind of time limited. Thank you and 
thank you for the insight. We very strongly received your 
message here.
    The New York Times suggested U.S. officials have been 
shelving sanctions against Chinese officials responsible for 
abuses against the Uyghurs out of concern that punitive 
measures will undermine trade talks. If true, what message does 
our inaction send not only to the estimated 3 million detainees 
around the world but also to the Chinese Government and 
international community about the commitment that we have to 
protecting human rights in China?
    Dr. Richardson. Senator Markey, I do not know how many more 
times we can say to the administration we are waiting to see 
Global Magnitsky sanctions in response to the gross human 
rights violations taking place in Xinjiang. I literally do not 
know what else the administration is waiting for.
    Senator Markey. Mr. Walker.
    Mr. Walker. I do not know if I have anything to add to 
that.
    Senator Markey. Mr. Xiao, what is the impact in China of 
the administration's policy?
    Mr. Xiao. On what? I am sorry.
    Senator Markey. What is the impact of this policy of the 
United States to kind of turn a blind eye.
    Mr. Xiao. The trade war?
    Senator Markey. Yes.
    Mr. Xiao. It is, of course, a huge issue, and the 
authorities are also using it to fan the nationalism. And with 
the repression and the censorship on the Internet and the 
Chinese media, you can only hear one side of voices. My team 
has been really working hard to go through the deleted 
contents, the censored materials to listen to the other voices 
that Chinese people looking at trade war. There are. There are 
liberal voices. There are more clear eyes. They are the ones 
who believe that letting the Chinese Government to follow those 
rules, to letting the foreign companies in to compete maybe is 
bad for the government, for the state enterprises, but it is 
good for people. It is good for consumers as a matter of fact.
    Senator Markey. So thank you.
    There is a Dickensian quality to all of these technologies. 
We invented them. Facial recognition, Internet, all of it. It 
can degrade. It can debase. It can enable. We as the inventor 
of these technologies cannot turn a blind eye to the degrading, 
to the debasing of cultures using our technologies. Thank you.
    Thank you, Mr. Chairman.
    Senator Gardner [presiding]. Thank you, Senator Markey.
    Senator Coons.
    Senator Coons. Thank you. I would like to thank both 
Chairman Risch and Ranking Member Menendez for holding this 
important hearing today on the 30th anniversary of the 
Tiananmen Square massacre.
    Mr. Xiao and Dr. Richardson, Mr. Walker, thank you for 
taking time to speak with us today about human rights and in 
particular about China's human rights record.
    Senator Tillis and I as the co-chairs of the Senate Human 
Rights Caucus yesterday issued a statement honoring and 
remembering the Chinese students who raised their voices to 
call for freedom 30 years ago. Like most of us, I remember the 
horror I felt watching that brutal government crackdown, as 
well as the inspiration I felt of the lone, anonymous man 
standing courageously in the path of a column of tanks. His 
brave act is an important reminder to all of us that all humans 
struggle for a basic measure of dignity and freedom.
    So it is deeply disappointing the Chinese Government 
refuses to acknowledge what happened 30 years ago. The fact the 
government is working diligently in China to erase all mention 
of what happened in Tiananmen Square makes it all the more 
important for those of us blessed with freedom and the right to 
speak freely to do so.
    It is also a reminder that there are many in China who 
believe in the universal values of liberty and freedom. We have 
a disagreement not with the Chinese people but with the 
authoritarianism and the Chinese Communist Party. Tiananmen is 
an important reminder. Many Chinese still want and hope to work 
for a transparent and accountable government, and not all 
Chinese believe the propaganda they hear frequently. And we in 
the United States should find ways to lift up these brave 
voices.
    I found particularly compelling Senator Menendez's opening 
in which he reminded us that it is the power of our example as 
a nation rather than the example of our power that has built a 
global network of values-based alliances. And whether it is in 
Sudan where protesters who were peaceful were mowed down by 
their army just in the last few days or whether it is 30 years 
ago on the square at Tiananmen, we need to stand up for human 
rights.
    Dr. Richardson, if I might. You have had a number of my 
colleagues question you about the administration and their sort 
of inconsistency. Your testimony underscored the importance of 
having Congress keep up the pressure on our administration to 
promote universal human rights and to not be selective. I 
applaud Secretary Pompeo for issuing a strong statement about 
Tiananmen Square, but remain concerned the administration's 
highly selective failing to speak out on human rights abuses in 
North Korea or in Saudi Arabia, for example.
    How much of our credibility, Dr. Richardson, depends on 
being consistent as a nation when we speak on human rights, and 
what happens to our credibility when we are selective, when we 
only condemn human rights abuses in a few countries and, 
obviously and frequently, overlook them or ignore them in other 
countries?
    Dr. Richardson. Thanks, Senator, for the question.
    I mean, clearly being consistent on human rights is 
essential. If you are selective about it, then you are leaving 
yourself vulnerable to criticisms that you only care about 
these issues in one place for political reasons rather than for 
principled ones. And it undermines the idea that human rights 
are indeed universal.
    I think given the scope of my particular work where the 
U.S.'s absence recently has been most acutely felt has been at 
the United Nations Human Rights Council where the U.S.'s 
withdrawal has made it exponentially more difficult to advance 
any steps towards fact finding or accountability or a longer-
term strategy----
    Senator Coons. I will just say one of the more inspiring 
aspects of my opportunity to serve alongside Senator John 
McCain was hearing him articulate the way in which human rights 
is not just one of many interests, it is sort of the principal 
interest that the United States has to continue to consistently 
advance around the world. It is what defines us, our 
willingness to advocate for human rights even when it is not in 
our narrow or short-term economic or strategic interest.
    Mr. Walker, I found your comments about the ways in which 
the technology of control and authoritarianism is now being 
exported by China globally to reinforce things I have seen 
particularly in sub-Saharan Africa. One of my concerns is that 
the ways in which the repression of the Uyghurs in Xinjiang is 
playing out, as you testified in detail, is now going to be 
replicated in other countries around the world fairly quickly.
    One of my concerns is that we have dedicated ourselves to 
deploying the mechanics of elections to middle income and to 
lower income countries and that there is a concerning, now, 
possibility of real overlap between the biometric data capture 
in order to validate elections and the machinery of repression 
that you described.
    How can we come up with standards of conduct for 
governments for this century in order to help their citizens 
have confidence that, by participating in what seems to be a 
public health screening or by participating in voting, they are 
not in fact handing over their own personally identifying 
information in a way that makes it easier to track and repress 
them?
    Mr. Walker. So it is a terrific question, Senator, and it 
is not an easy one to answer.
    I would say it speaks to the need for democratic solidarity 
at a very basic level. I believe that all the democracies are 
in this together, and to the extent you have democracies in 
sub-Saharan Africa or Latin America, which are now adopting the 
technologies from China but also the norms that come around 
them, it is terribly important that we understand this. It is 
not just the hardware. But when China comes in, they come with 
know-how and a certain set of standards and norms that in my 
view are anathema to democratic and human rights norms.
    This is going to take a lot of work because in countries 
that have deep institutional roots and therefore, at least to 
some degree, more of an ability to respond to precisely the 
sort of issue you touched on, they will be better positioned, 
but not entirely positioned, as we learned in our own country 
with the vulnerabilities of our election system, which is true 
in all democracies now. I think this is going to speak to the 
need for new models of cooperation that would go across 
disciplines, and this is something that is terribly important. 
It cannot just be regional specialists. You need technologists. 
You need data scientists. You need people who understand 
privacy law and rules. And this is an area of work we are going 
to have to get better at in the coming period.
    Senator Coons. I will say this. In visits to the Baltic 
States and to Eastern European states that have faced 
persistent and broad-scale interference in their media and 
communication systems and their electoral systems from Russia, 
there is a sharing among democracies of the means of resisting 
undue influence. I think we need to rapidly develop and deploy 
something comparable.
    Your comment on Chinese training of journalists in Africa 
was a reminder that we are far into what is now a competition, 
not a clash of civilizations, Mr. Xiao, as you correctly 
pointed out, but a clash of competing visions of the role of 
the individual with regard to the state and society.
    I am well over my time, and we have another vote called. 
Mr. Xiao, I will simply say I found your comments inspiring. I 
would love to give you a minute, if I might, to simply share 
with us--given that I am confident that young Chinese in 
mainland PRC continue to yearn for the same things as those a 
generation ago did in Tiananmen Square, what can we do here in 
the United States to help them?
    Mr. Xiao. Before I answer that question, I want to 
respond--not respond--commenting on your----
    Senator Gardner. If you could be brief with your responses. 
I know we have got limited time and a vote coming on. Thank 
you.
    Mr. Xiao. Sure, okay.
    The United States should put many, many pro-democracy human 
rights programs, including the educational area, that have an 
agenda to engage the Chinese youth to a more open world. Today 
many young Chinese, even they come to the United States, they 
live in their Chinese social media world. They are still not so 
open to the life here and the political system and values here. 
So there is much more a program can do even to the Chinese 
students and overseas Chinese around the world studying in this 
country.
    Senator Gardner. Thank you, Mr. Xiao.
    Senator Kaine.
    Senator Kaine. Thank you and thank you to the witnesses.
    I know you have testified and there have been questions 
asked about the Uyghur situation, but I just want to return to 
it. The reporting that we have had for the last couple of years 
about this sort of mass suppression of Uyghurs in northwest 
China has just been chilling. The involvement of some American 
companies in helping provide China with technology has been 
very, very disturbing. And it strikes me that if Uyghurs were 
Christians and the Chinese Government was placing officials in 
the homes of Christians to monitor whether they engaged in 
religious observances or not, in the United States we would be 
absolutely taking to the streets about this. I think the fact 
that they are Muslims and the fact that the information that we 
get is a little bit harder to access for some has maybe 
suppressed the degree of outrage among the American public.
    But I have worked on legislation with colleagues to get 
more reporting from the State Department, letters to the 
administration to ask them to do more.
    What might we do that would better raise in the American 
public's conscience the just shocking violations of these 
people's basic human rights? I mean, a million-plus in 
concentration/reeducation camps. But again, the placing of 
officials in people's homes to monitor their religious 
observances is just unheard of. What can we do to spread the 
word more and generate global outrage about what is happening?
    Mr. Walker. So maybe just a brief observation. I think the 
reporting that has been done in papers like the New York Times 
and the Wall Street Journal, which has really been phenomenal 
bringing to light in graphic detail the way in which this, as I 
called it, technology-animated police state has emerged in 
Xinjiang, is critically important.
    I think the next step is for all of us to understand that 
what is happening there cannot be seen in a vacuum. What is 
happening there has been happening in other parts of China 
already and has informed development in the Uyghur region, and 
it is informing developments beyond China now in all the ways 
we have been discussing. And that is central to this, that this 
is now I think relevant for all of us who value privacy, who 
value human rights, that the surveillance mechanisms under 
which the Uyghurs are suffering is in the view of the 
leadership in Beijing are something that can be applied 
elsewhere. And that should really chill all of us.
    Senator Kaine. I am going to ask a second question, and I 
am going to finish on time because I have to vote on this vote.
    And the second question is this. So give us some advice. 
Here is something that we hear often from the administration if 
we raise human rights issues with respect to Saudi Arabia, for 
example. They will say, well, look, if we insist on tough human 
rights standards, they will just go to China or Russia because 
China and Russia will do all kinds of business with them 
without any human rights standards. That argument always makes 
me furious. I want to be true to our values. I do not care. I 
hate dictators of the right, left, or whatever, or the cults of 
personality, and I think we ought to stand for something 
different.
    But how do you respond to that argument when somebody makes 
the argument that, hey, there are a lot of countries around the 
world that are perfectly willing to do all kinds of business 
with you with no human rights expectations? Why should the U.S. 
still insist on high human rights standards?
    Dr. Richardson. Well, Senator Kaine, thanks for the 
question.
    I have been at Human Rights Watch since 2006, and I have 
heard that argument from just about every government and every 
administration we have worked with since then in the U.S. and 
beyond. Nobody wants to be in the lead irking the Chinese. It 
sort of depends on who is in the hot seat that particular day.
    I think governments are at a point now, though, where there 
is a much greater recognition of the threat the Chinese 
Government presents not just inside but outside China. And the 
question now is how to channel, I think, an agreement that 
there is not going to be convergence on established 
international norms to translate that into forceful policies 
that prioritize, among other things, human rights.
    I would tweak your point of comparison a little bit. We 
found ourselves saying a lot if any other government in the 
world was locking up a million Muslims simply on the basis of 
their identity, let us imagine what the global response would 
look like and aspire to that.
    Senator Kaine. You got a good point.
    Dr. Richardson. Very quickly, two things I can think of off 
the top of my head that this committee and others can do.
    First of all, I think the Uyghur diaspora community across 
the U.S. is in desperate need of recognition, attention, 
support, and that ranges everywhere from trauma counseling to 
databases of missing family members, simply a recognition of 
their problems.
    The other is really to reach out to your counterparts in 
other governments to find commonality. We cannot find many 
governments that disagree that the situation in Xinjiang is 
incredibly serious and problematic. It is very hard to get 
anybody to step up and make the first move in pushing for any 
sort of joint response that presumably would put greater 
pressure on China.
    The Chairman [presiding]. Thank you. I appreciate those 
important questions. I am going to do a follow-up on that when 
I get a chance. But now, Senator Romney, you are up.
    Senator Romney. Thank you, Mr. Chairman. I very much 
appreciate the committee and the chairman for hosting this 
hearing. It is such an important topic. And I apologize just as 
a Member of the Senate for the fact that we keep on emptying 
the room up here, but there are votes going on. So we keep on 
having to run back and forth to vote. And the good news is that 
your responses are kept in the record and will be available to 
us and to people throughout the world that have interest in 
this topic, as I think many, many do.
    I, for one, was inspired by the extraordinary bravery that 
was demonstrated 30 years ago at Tiananmen Square and was 
impressed with the courage of the individuals who stood and 
expressed their desire for freedom and recognized a sense of 
vitality and energy among the people in China to consider 
alternative paths. Clearly, the whole country was not looking 
to become a democracy in our form, but they were looking at 
alternatives.
    My perception today is that that may no longer be the case, 
and I wanted to get your thought about what the mood and the 
perception is among the people in China. I say that because 
with the Uyghurs being incarcerated, with the effort to create 
civic scores for individuals, there is a sense that perhaps the 
spirit of Tiananmen has been crushed and that it is forgotten 
among the people of China.
    I have a very close colleague who is a professor at a 
business school. He has several Chinese students that are in 
his business school class. Their classmates ask questions about 
freedom of expression, about the freedoms that they hope to 
have. And almost to a person, he says they defend the 
government. They suggest that it is totally appropriate to 
prevent the Internet to foment anger among the Chinese people, 
that they should be united. So he said it is extraordinary to 
see that there is very little discussion of alternatives among 
the Chinese people.
    And so I turn to you who watch closely what is happening in 
the country and would ask for your perception as to whether or 
not there a dissent movement within the country. Is there an 
openness to change? Is there a desire for change, or has it 
been crushed by the government? Please.
    Mr. Xiao. When social media just got into China around 
2003-2004, and there were a few hundred, a few thousand Chinese 
blogs, I asked my student researchers to say, look, there is 
political discussion on Chinese blogs. He came back to say no. 
They only talk about money and business. Really?
    After 10 years, by the time of 2009, 2010 and 2011 when 
social media became, like hundreds of millions of users, even 
the censors were working so hard, the online main voice opinion 
leaders are public intellectuals holding liberal political 
values. They have the maxim of the follower. But that leads to 
President Xi Jinping to have a full-scale crackdown on the 
Chinese Internet. So if the control is not strong enough, those 
voices not only coming out, not only dissent, but popular and 
massive.
    Second, yes. We heard all of this about Tiananmen in the 
past. We forgot about Tiananmen. Some people say I changed my 
mind, and some people say I do not know anything about 
Tiananmen. But really? Do you really believe that? Why does the 
Chinese Government try so hard to suppress every single word 
about Tiananmen on the Internet? Do not say that the Chinese 
Government is making a mistake, wrong judgment on this. They 
know as soon as they can let that repression a little bit off, 
the memory do comes back. People do remember. People that are 
now remembering are not telling you they are remembering 
because of fear. And they rule by fear.
    Senator Romney. Any other comments? Yes.
    Dr. Richardson. Just a quick observation, Senator, that I 
think one piece of the current puzzle really is about people 
who leave China for more open environments precisely because 
they want to know about or become exposed to different 
political systems or have the opportunity to study in places 
that ensure academic freedom. And I think it is imperative for 
the United States and other democracies to think of those 
people in terms of solidarity. I think it is a complicated 
discussion now with concerns about national security or whether 
people are acting as agents on behalf of the Chinese 
Government.
    But I really feel very strongly, especially given that this 
is a mistake the United States has made in the past to 
arbitrarily target people based on their citizenship or their 
ethnicity, to not repeat that mistake at this particular 
moment. There are people who come here precisely because they 
want the rights and the freedoms, and I think there are people 
who are feeling uncomfortably targeted. And it is imperative, 
in keeping the Tiananmen spirit alive--part of that lies here 
too in keeping this environment open for them.
    The Chairman. Thank you.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Thank you to each of the witnesses for being here today.
    This week marks a dark occasion in world history. 30 years 
ago, thousands of Chinese protesters gathered in Tiananmen 
Square demanding freedom and demanding democracy. The Chinese 
Communist Party and the People's Liberation Army slaughtered 
them. To this day, we still do not know exactly how many 
perished on that bloody dawn, as Nobel Peace Laureate Liu 
Xiaobo described it.
    Today the CCP continues its war against the people of China 
and treats the rest of the world with similar disdain.
    In my view, China poses the greatest long-term geopolitical 
threat to the United States. They have to be dealt with and 
dealt with with clear eyes. We cannot break off relations with 
Beijing, but we must begin to rethink the assumptions that have 
guided U.S. policies toward China since Tiananmen Square.
    Let us start by addressing an uncomfortable reality here at 
home: the role of U.S. technology in China's oppression of its 
people.
    Dr. Richardson, Human Rights Watch recently released a 
report where your colleagues reverse engineered a Chinese 
censorship app for smart phones. This app, called the 
Integrated Joint Operations Platform, is a primary tool of mass 
surveillance in Xinjiang. In this report, you referenced U.S.-
based companies that contribute to the censorship apparatus in 
Xinjiang. This week, I plan to introduce legislation, the 
Tiananmen Act of 2019, to restrict China's access to such 
technology.
    In your judgment, how widespread is U.S. technology in 
modern day Chinese surveillance and censorship?
    Dr. Richardson. Senator, thanks for that question. I wish I 
had a perfect answer to it. When we are done reverse 
engineering things, that is the next on our list of research 
projects.
    But I think the fact that we do not have clarity about that 
and that it is not easy to get clarity about that is a problem 
in and of itself. And we have discussed this morning the need 
for due diligence strategies from all manner of companies, 
whether they are tech companies, whether they are 
infrastructure extractives, about what exactly the nature of 
their business is and how they can be sure they are not 
enabling or contributing to human rights violations.
    Senator Cruz. If you google ``Tiananmen Square'' in China, 
do you learn anything about the massacre, about the slaughter?
    Mr. Xiao. You see all the tourists and the tourist 
pictures.
    But remember this. The Chinese Government does not only 
suppress those discussions, they are also guiding and inciting 
and sort of channeling the public opinion to the ideological 
foundation that is supporting the regime. Only under the fear 
and under such technological support is that strategy is 
effective.
    But now we have a game changer, which is the new layer of 
the artificial intelligence, big data technology. Yes, the U.S. 
is still ahead of China in artificial intelligence, in many 
areas, but not in our implementations of facial recognition, 
not in voice recognition, not in some of the other metrics of 
collecting because China has a large set of data. They are 
training their algorithms to make the application much more 
precise and comprehensive and fast. And this is the danger.
    Senator Cruz. Well, and many of us are concerned that U.S. 
companies are actively aiding and abetting China's suppression 
of its people and censorship of free speech. Indeed, days 
before the Tiananmen Square anniversary this year, reports 
began to circulate that Twitter had suspended the accounts of 
dozens of Chinese political dissidents. Twitter reportedly had 
run a sweep for bots.
    How would you describe the Communist Party's efforts to 
coerce American companies into assisting the party censorship 
activities?
    Mr. Xiao. On Twitter, I can say this. I do not know what 
has recently happened inside the Twitter company. I think they 
should tell the public by giving a report on that.
    But I do know that the Chinese espionage and intelligence 
communities have developed the tools, the technologies to 
infiltrate Twitter, Facebook, gmails, to create fake accounts, 
create fake tweets, and to penetrate anybody's Twitter account 
or Gmail account or Facebook account--they have that 
technology.
    Senator Cruz. Mr. Chairman, if I may ask one more.
    The Chairman. Please. Go ahead.
    Senator Cruz. Mr. Walker, you have warned about China's 
sharp power, and you have described the Chinese infiltration of 
American higher education institutions. This is an issue that 
concerns me greatly. Just this week, I introduced the Stop 
Higher Education Espionage and Theft Act, which gives the FBI 
and DHS new authorities to address the issues.
    My question for you is what steps should universities take 
to insulate themselves from Chinese espionage, and what steps 
should the U.S. Government take to protect higher education 
from these threats?
    Mr. Walker. Thank you, Senator. I think the question you 
have asked is related to the previous one as well, that this is 
a pattern of either inducing or cajoling or coercing open 
institutions, independent institutions in open societies to 
behave in ways they would not otherwise behave. And so you have 
alluded to some of these issues that are relevant to the 
stealing of technology and related things. But there is a full 
spectrum of challenges that have emerged that transcend those 
issues which can induce educators, students in our open 
societies to sidestep certain issues or to not talk about 
certain things that are not welcome by the Chinese authorities.
    I think this is something that we need, as I have alluded 
to in previous writings and earlier today, to find ways to 
develop more durable democratic solidarity so that no single 
institution is exposed to the entreaties and the influence of 
the Chinese party state. That is the most effective way over 
time to have these institutions feel as though they can say no 
and essentially uphold liberal democratic standards.
    Senator Cruz. Thank you.
    The Chairman. Thank you, Senator Cruz.
    In closing up, let me just talk about a couple things.
    Number one, are all three of you aware of the Micron 
Technology case, the case that emanates from Idaho? Micron 
Technology is the second largest maker of DRAM memory chips in 
the world, and the Chinese have stolen their trade secrets and 
their technology and gone home and patented them in China and 
now are suing them in China over the use of their own 
technology. Are the three of you aware of that?
    This is a poster child for what they are trying to 
accomplish with China 2025. You ought to get familiar with 
that. It is on the radar of the administration at the highest 
level and obviously here in Congress. We have taken it up with 
the Chinese ambassador here who is--he was born to be an 
ambassador. He is defending the undefendable.
    Let me just close up with a point that I want to raise that 
we just barely touched on, and that is the fact that all of us 
on this committee and me maybe more so than others get touched 
by virtually every country in the world. We get the head of 
state, the number two, the commerce person, defense person, 
foreign secretary person. And when you talk about what China is 
doing in their country, first of all, you find that China is 
doing something in every country. I mean, they are ubiquitous 
around the world. But when you talk to them about what they are 
doing and you bring up the Sri Lanka case where the Sri Lankans 
lost the port--they took the money mistakenly and now have lost 
that port. They come back and say, well, the United States is 
not doing enough. China shows up with a bushel basket of money 
and the United States does not.
    You sit and you listen to that. And these are people that 
desperately need money in some places like Sri Lanka. What is 
your response to that? What do you say to somebody like that? 
Ms. Richardson, I think you started. Why do you not touch on 
that for a minute, please?
    Dr. Richardson. I find myself saying often in interviews 
that we are all familiar with the phrase that nature abhors a 
vacuum. Nature has got nothing on the Chinese Communist Party, 
which will move into any space it is granted. And I think any 
government that is serious about defending human rights needs 
to get out and become very aware very quickly of all of the 
spaces that the Chinese Government and Communist Party have 
moved into and defend them vigorously now while they still can. 
Many of the key institutions that the United States relies on, 
that people in China who want democracy rely on, that people in 
Sri Lanka who want human rights rely on are under threat 
specifically as a result of the Chinese Government pressure, 
and that should be a priority for the U.S.
    The Chairman. Good answer. One of the problems is there is 
only so much money, and the Chinese seem to be able to pick out 
places where they can put money. They do not do it like we do. 
I mean, it has got nothing to do with human rights. It has got 
nothing to do with democracy. It has got nothing to do with the 
rectitude of the government that is in power. All they are 
looking for is the wedge to put the money into. And it puts us 
at a real disadvantage as we go out and do that. And that is 
particularly true in American--I hear this from American 
companies all the time. They go out and bid on a job or what 
have you. They do not have a Corrupt Foreign Influences Act 
(Foreign Corrupt Practices Act) in China, as you probably know. 
So our companies are at a disadvantage there when they try to 
compete.
    Mr. Xiao. Not only about money. These countries, including 
their government, need to understand or recognize the danger of 
being so in debt or controlled, potentially being controlled 
and manipulated by the Chinese authoritarian regime. That is 
not a rules-based game. They have oppositional parties--many of 
them. They have a civil society. They have a relatively open 
media. Their people need to know this is not just about who 
provides more money. And Chinese--a lot of those investments 
are also eroding the democratic systems in those countries.
    So if there is some kind of public education throughout 
those different countries China goes to, that public campaign 
to recognize what the Chinese Government is capable of doing to 
control the countries--in those countries for China's interest, 
then there is certain resistance that can help.
    The Chairman. I think that is appropriate.
    I do not want to risk an international incident, so I am 
not going to mention countries. But there are some countries 
that are much more susceptible to this than other countries, 
and I think that is a good point.
    Mr. Walker, do you want to close it up?
    Mr. Walker. So I think one way to think about this, 
Senator, is that it is about the money in certain respects but 
it is not only about the money. And for so many of the 
countries that we are talking about and as my colleagues have 
alluded to, they are now deeply engaged with China on a wide 
range of levels in many spheres, and it is not just about the 
infrastructure investment. It slowly becomes about the way 
their media and technology spheres develop. It is about the 
degree to which perhaps weak political opposition can continue 
to sustain itself. It is about the way in which civil society 
can operate, for example, in countries in sub-Saharan Africa 
and Latin America.
    And I would put it this way. I do not think the United 
States and its partners have the luxury of not doing anything 
because China is projecting and exerting its values in a 
vigorous and purposeful way. To the extent we are not 
vigorously pursuing our own values and helping our partners 
defend them in solidarity, it will be a losing proposition, and 
we are going to find ourselves 5 years from now, say, if we do 
about what we are doing now, in a very unpleasant position.
    The Chairman. Well said.
    Thank you all for being here today.
    For the record, I will state that I am going to keep the 
record open until close of business on Friday. Members may have 
questions to submit. If you would be so kind as to respond to 
those at your earliest convenience, we would greatly appreciate 
it.
    This has been a very good hearing. I think that it is going 
to be watched around the world probably, and I think it has 
underscored the challenges that we are facing.
    Thank you again so much for being here.
    The committee will be adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


         Responses of Mr. Xiao Qiang to Questions Submitted by 
                        Senator Robert Menendez

                      accountability for tiananmen
    To this day the Chinese government refuses to let the survivors of 
the Tiananmen massacre and their families commemorate and honor their 
dead and continues to deny them justice in a concerted effort to wipe 
June 4 from memory.
    On May 20th, police ordered 82-year old Ding Zilin whose son Jiang 
Jielian was killed in the June 4 massacre to leave her home in Beijing 
and travel more than 1,100km to her hometown, a common tactic used 
against activists to silence them during politically sensitive periods.
    Ding Zilin is a founding member of Tiananmen Mothers, a group of 
families of victims who are seeking an investigation into the June 4th 
bloodshed. I ask Unanimous Consent to submit for the Record a letter 
from the Tiananmen Mothers to China's leaders calling for 
accountability and justice. Their own government may seek to silence 
them, but we can help them to have a voice.

 Suggested Reading for the 30th Anniversary of the Tiananmen Crackdown 
                  Submitted by Senator Robert Menendez

    ``Mourning Our Families and Compatriots Killed in the June Fourth 
Massacre: A Letter to China's Leaders'' By the Tiananmen Mothers

    https://hrichina.org/en/press-work/press-release/mourning-our-
families-and-compatriots-killed-june-fourth-massacre-letter

    Charter 8 December 17, 2017

    https://www.cecc.gov/resources/legal-provisions/charter-08-chinese-
and-english-text

    ``I Have No Enemies: My Final Statement'' By Liu Xiaobo

    https://china.usc.edu/liu-xiaobo-i-have-no-enemies-my-final-
statement-december-23-2009

    Question. How can we help ensure accountability and justice for the 
Tiananmen Mothers and others who lost family and friends thirty years 
ago?

    Answer. Maybe honoring Professor Ding Zilin in some more prominent 
level from the U.S. Congress.

    Question. What additional measures can we take to assure June 4 
will not be erased from history?

    Answer. Publicly raise this issue with China at least every 
anniversary.
                          digital surveillance
    Thirty years ago, the world was shocked when the Chinese Communist 
Party used tanks and the full force of the military to quash the pro-
democracy movement. Today, they don't need to send in tanks. In 
Xinjiang they've amassed a massive surveillance state that looks like 
it came out of a George Orwell novel. Where people live in fear and 
under constant surveillance. Where technology allows the Chinese 
government to collect data and aggregate people if they are so-called 
``threats'' to the Party, permitting the government to arbitrarily 
detain more than a million Uyghurs in concentration camps.

    Question. What do we know about the Chinese government's use of 
surveillance technology to suppress human rights in Xinjiang and 
elsewhere in China?

    Answer. Pervasive surveillance in Xinjian both complements and 
fuels the ongoing mass detentions in the region.
    This issue is widely reported by the media by now, such as:

    https://www.nytimes.com/interactive/2019/04/04/world/asia/xinjiang-
china-surveillance-prison.html

    https://logicmag.io/07-ghost-world/

    https://www.hrw.org/video-photos/interactive/2019/05/02/china-how-
mass-surveillance-works-xinjiang

    Question. What role have U.S. companies played in providing China 
with such technology?

    Answer. New Jersey-based Infinova has directly provided 
surveillance systems to Chinese authorities in Xinjiang and elsewhere; 
others may have done the same. In other cases, U.S. companies support 
Chinese surveillance firms by importing their products for sale.
    U.S. companies including Intel, Nvidia, Seagate, and Western 
Digital supply essential components to Chinese tech firms such as 
Hikvision and Dahua.

    https://foreignpolicy.com/2019/03/19/962492-orwell-china-
socialcredit-surveillance/

    Research into underlying AI technologies is highly 
internationalized. Oxford University's Jeffrey Ding, for example, 
recently wrote that ``the seeds of China's AI development are rooted in 
Microsoft Research Asia (MSRA) in Beijing [ . . . .] At the same time, 
MSRA has been essential for Microsoft.'' (The linked piece, describing 
five key points Ding gleaned from his first year of compiling his 
ChinAI email newsletter, is highly recommended.) Some news reports have 
criticized companies and institutions over research partnerships 
involving military-linked institutions in China, but the actual risk 
arising from these has been disputed by some experts, including Ding. 
The issue is further complicated by widespread potential for dual use 
of AI technologies.
    Any U.S. company operating in China could be forced to help surveil 
its users there under recent security legislation. Notable recent 
examples include Apple's transfer of local user data to servers 
operated in partnership with a government-owned Chinese partner, and 
Google's planned design for its apparently aborted ``Project 
Dragonfly'' Chinese search service, which would have logged search 
queries and tied them to users' verified identities. Twitter has also 
been the center of recent anxieties following a wave of account 
suspensions affecting Chinese users shortly before the recent Tiananmen 
anniversary on June 4. (The company has said that these were 
accidental.)
    Numerous recent reports have also highlighted American investments 
in Chinese surveillance firms.

    https://www.ft.com/content/36b4cb42-50f3-11e9-b401-8d9ef1626294

    https://www.economist.com/business/2019/04/06/google-and-the-
ethics-of-business-in-china

    https://www.buzzfeednews.com/article/ryanmac/us-money-funding-
facial-recognition-sensetime-megvii

    U.S. banks like Morgan Stanley and Goldman Sachs are also 
supporting Chinese tech companies more generally with large loans. 
Although the firms in question like Bytedance are not directly involved 
in abuses in Xinjiang, they, like any Chinese company in their 
position, would be required to cooperate with censorship and 
surveillance of users.

    Question. What role does Congress have in prohibiting these U.S. 
companies from doing business with Chinese security services?

    Answer. The financial and technological stakes are high enough to 
make restraint or self-regulation by industry unreliable at best. Any 
controls imposed by the executive branch might be traded away to serve 
other ends, given the current administration's evident lack of concern 
for underlying rights issues. Congress therefore seems the most likely 
source of robust, durable restrictions.

    Question. Should we require the State Department to publish a list 
of problematic Chinese companies who are aiding in the government's 
crackdown on human rights?

    Answer. ``Aiding in the government's crackdown of human rights'' 
might be too broad: any Chinese tech company could be forced to censor 
content or provide details of users' activity on their platforms, for 
example. Narrower criteria such as direct provision of surveillance 
hardware or software to authorities in Xinjiang might both be more 
practical and provide a basis for more focused, effective policy. As 
with the dual-use AI research problem noted above, the situation is 
complicated by the entanglement of political repression with legitimate 
law enforcement and urban management, which could make broader 
conditions for inclusion such as provision of surveillance systems to 
authorities across China impractical.
    In addition, the corporate landscape is fluid and opaque. With 
regard to Xinjiang, for example, facial recognition firm Megvii was 
reportedly not involved in the surveillance app examined by Human 
Rights Watch, despite the presence of its own code among that obtained 
by HRW. Sensetime sold off its share in a Xinjiang-based joint venture 
in April, but the move has been described as ``only symbolic'' and ``a 
fig leaf.'' It would be a considerable challenge to compile a list 
without false positives that would damage its credibility and loopholes 
that would undermine its effectiveness.

    Question. What additional steps can the U.S. government take to 
ensure that technology does not fall into the wrong hands or shape how 
China uses such forms of digital authoritarianism?

    Answer. One important step would be to lead by example. American 
surveillance technologies are widely used in dubious ways at home, and 
widely sold to dubious regimes abroad. Particularly in the current 
climate, this undermines the credibility of concerns about or measures 
against Chinese surveillance, both at home and abroad. In addition, the 
sale of U.S. surveillance technology to third countries increases its 
exposure to possible Chinese acquisition and reverse-engineering.
    Another crucial step will be provide FBI and other intelligence 
agencies more resources and high priority to gather intelligence on 
such harmful technology transfer, and more responsive to human rights 
organizations' credit reports on those issues.
                             civil society
    It comes as no surprise that the Chinese government harasses 
activists and dissidents who wish to commemorate the June 4 
anniversary. The Chinese government also uses vague national security 
legislation to ensure that civil society doesn't work on sensitive 
topics such as human rights and democracy, closing the space for any 
work to be done inside the country.

    Question. How can we help promote and partner with civil society 
inside of China?

    Answer. The Chinese government has stepped up severely on cracking 
down civili society in China in the past 6 years. One thing the U.S. 
government can do is put some funding to support programs aiming at 
hundreds of thousands of Chinese students who are studying outside of 
China, especially in America.
                               falun gong
    While we have rightfully been focused on the plight of the Uyghurs 
in recent months, the Falun Gong continue to experience systematic 
persecution at the hands of the Chinese government.

    Question. In your view, how should this administration be 
addressing the human rights violations perpetrated against the Falun 
Gong?

    Answer. The persecution on Falun Gong should be always included in 
the list of human rights violations, particularly on religious 
persecutions and being raised to Chinese government by US government in 
all appropriate occasions.

    Question. Should we be encouraging the administration to consider 
using Global Magnitsky sanctions against those individuals who are 
credibly alleged to be responsible for the persecution of the Falun 
Gong?

    Answer. Yes, definitely.
                             great firewall
    For China to change for the better it is clear that it will be up 
to the Chinese people to better understand and challenge their 
government's human rights practices. For example, the Tibetan people 
have resisted peacefully to the Chinese government oppression for 
decades. Yet all information about China's repression of the Tibetans 
is censored by the Communist Party.

    Question. Do you think the Chinese people appreciate the increasing 
discrimination suffered by Tibetans?

    Answer. In general, not much. Chinese people are by large unaware 
of the increasing discrimination suffered by Tibetans. Not only lack of 
related information (they are all suppressed by Chinese censors) , but 
also on going propaganda about how Tibetans are ``enjoying'' their 
``good life'' Brough by Han Chinese also enhanced this ignorance and 
prejudice about Tibetans among Chinese people. Fundamentally, this is 
due to the information censorship and lack of public debate on those 
issues. Chinese people are not aware.

    Question. How does the ``Great Firewall'' function to suppress the 
free-flow of information in China? What can be done to alter that 
situation?

    Answer. ``Great Firewall'' is a computational algorithms and 
infrastructure which monitoring, filtering and blocking unwanted 
websites outside of China from Chinese internet users. It can be 
circumvented by anti-blocking technology--commonly knows as Proxy or 
VPN-like technology - and there are large number of Chinese users 
(potentially tens of millions) are willing to use such technology to 
circumvent the Great Firewall. Therefore, if US government increase 
amount of funding in annual Internet freedom bill, and year-marked some 
amount on China, it will guarantee effective institutional efforts to 
develop anti-blocking technology to keep up in this arms-race. The 
current funding and China portion is simply not adequate. This not to 
completely undermine the Great Firewall, of which Chinese government 
invested in billions of dollars to keep it up hand, but still can 
effectively mitigate its impact and serve millions, potentially tens of 
millions of Chinese users freer flow of information.
                               __________

     Responses of Mr. Christopher Walker to Questions Submitted by 
                        Senator Robert Menendez

                  accountability for tiananmen square

    Question. How can we help ensure accountability and justice for the 
Tiananmen Mothers and others who lost family and friends thirty years 
ago? What additional measures can we take to assure June 4 will not be 
erased from history?

    Answer. A crucial aspect of ensuring accountability and justice for 
the Tiananmen Mothers and others who lost family and friends 30 years 
ago is to make certain, first and foremost, that the Chinese 
authorities are not successful in their efforts to erase the massacre 
from collective memory. In this regard, the stakes are growing as 
Beijing improves its capabilities in modernizing censorship. As scholar 
Glenn Tiffert's work has shown, the CCP is actively working to censor 
the digitized archives of Chinese periodicals, books, documentary 
collections, and other historical sources. American universities, as 
well as universities in other free societies, have a vital role to play 
in cataloging and resisting this censorship to preserve the historical 
record of this period for Chinese and foreign scholars. More 
fundamentally, given the concerted effort of the Chinse authorities to 
suppress independent information it is important to promote the 
consistent flow of information about the Tiananmen massacre within, as 
well as outside of, China.
                          digital surveillance
    Thirty years ago, the world was shocked when the Chinese Communist 
Party used tanks and the full force of the military to quash the pro-
democracy movement. Today, they don't need to send in tanks. In 
Xinjiang they've amassed a massive surveillance state that looks like 
it came out of a George Orwell novel. Where people live in fear and 
under constant surveillance. Where technology allows the Chinese 
government to collect data and aggregate people if they are so-called 
``threats'' to the Party, permitting the government to arbitrarily 
detain more than a million Uyghurs in concentration camps.

    Question. What do we know about the Chinese government's use of 
surveillance technology to suppress human rights in Xinjiang and 
elsewhere in China?

    Answer. The CCP has created a massive, centralized surveillance 
system within the Uyghur region, using biometric data, a network of 
cameras, and facial recognition AI to monitor, intimidate, and suppress 
the Uyghur and other minority populations. Authorities in the region 
have access to detailed information about the people they oversee, from 
their blood type to their cell phone and electricity usage, information 
that police today can access in real time, or close to it. This 
information is then used to harass and often detain people for legal 
activities that the government may deem suspicious. Apart from enabling 
the imprisonment of millions of members of ethnic minorities in 
reeducation camps, this pervasive surveillance also creates an 
atmosphere of fear, where people assume that the authorities are 
constantly watching, in both private and public spaces, both online and 
offline. There is reason to believe that the tech-animated surveillance 
that the CCP has put into place in the Uyghur region is part of a 
wider, iterative process of high-tech surveillance development that has 
nationwide implications.

    Question. What role have U.S. companies played in providing China 
with such technology?

    Answer. [No response received]

    Question. What role does Congress have in prohibiting these U.S. 
companies from doing business with Chinese security services?

    Answer. [No response received]

    Question. Should we require the State Department to publish a list 
of problematic Chinese companies who are aiding in the government's 
crackdown of human rights?

    Answer. [No response received]

    Question. What additional steps can the U.S. government take to 
ensure that technology does not fall into the wrong hands or shape how 
China uses such forms of digital authoritarianism?

    Answer. [No response received]
                             civil society
    It comes as no surprise that the Chinese government harasses 
activists and dissidents who wish to commemorate the June 4 
anniversary. The Chinese government also uses vague national security 
legislation to ensure that civil society doesn't work on sensitive 
topics such as human rights and democracy, closing the space for any 
work to be done inside the country.

    Question. How can we help promote and partner with civil society 
inside of China?

    Answer. As I noted in my written statement, at a fundamental level, 
any response to this global challenge to democracy presented by China's 
rise also needs to consider the essential importance of democratic 
development in China itself. In this regard, it is essential that the 
democracies continue to support people and organizations that can help 
enhance transparency, accountability, and human rights within China.
                               falun gong
    While we have rightfully been focused on the plight of the Uyghurs 
in recent months, the Falun Gong continue to experience systematic 
persecution at the hands of the Chinese government.

    Question. In your view, how should this administration be 
addressing the human rights violations perpetrated against the Falun 
Gong?

    Answer. [No response received]

    Question. Should we be encouraging the administration to consider 
using Global Magnitsky sanctions against those individuals who are 
credibly alleged to be responsible for the persecution of the Falun 
Gong?

    Answer. [No response received]
                               __________

          Material Submitted for the Record by Senator Markey:
                        tter to Secretary Pompeo
                        

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                  <all>
</pre></body></html>
